<html>
<title> - REALIZING NATIONWIDE NEXT-GENERATION 911</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





                REALIZING NATIONWIDE NEXT-GENERATION 911

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 29, 2017

                               __________

                           Serial No. 115-21




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov
                        
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-782                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
TIM MURPHY, Pennsylvania             ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
MARSHA BLACKBURN, Tennessee          DIANA DeGETTE, Colorado
STEVE SCALISE, Louisiana             MICHAEL F. DOYLE, Pennsylvania
ROBERT E. LATTA, Ohio                JANICE D. SCHAKOWSKY, Illinois
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida            YVETTE D. CLARKE, New York
BILL JOHNSON, Ohio                   DAVID LOEBSACK, Iowa
BILLY LONG, Missouri                 KURT SCHRADER, Oregon
LARRY BUCSHON, Indiana               JOSEPH P. KENNEDY, III, 
BILL FLORES, Texas                       Massachusetts
SUSAN W. BROOKS, Indiana             TONY CARDENAS, California
MARKWAYNE MULLIN, Oklahoma           RAUL RUIZ, California
RICHARD HUDSON, North Carolina       SCOTT H. PETERS, California
CHRIS COLLINS, New York              DEBBIE DINGELL, Michigan
KEVIN CRAMER, North Dakota
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia

             Subcommittee on Communications and Technology

                      MARSHA BLACKBURN, Tennessee
                                 Chairman
LEONARD LANCE, New Jersey            MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               PETER WELCH, Vermont
STEVE SCALISE, Louisiana             YVETTE D. CLARKE, New York
ROBERT E. LATTA, Ohio                DAVID LOEBSACK, Iowa
BRETT GUTHRIE, Kentucky              RAUL RUIZ, California
PETE OLSON, Texas                    DEBBIE DINGELL, Michigan
ADAM KINZINGER, Illinois             BOBBY L. RUSH, Illinois
GUS M. BILIRAKIS, Florida            ANNA G. ESHOO, California
BILL JOHNSON, Ohio                   ELIOT L. ENGEL, New York
BILLY LONG, Missouri                 G.K. BUTTERFIELD, North Carolina
BILL FLORES, Texas                   DORIS O. MATSUI, California
SUSAN W. BROOKS, Tennessee           JERRY McNERNEY, California
CHRIS COLLINS, New York              FRANK PALLONE, Jr., New Jersey (ex 
KEVIN CRAMER, North Dakota               officio)
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
GREG WALDEN, Oregon (ex officio)
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     1
    Prepared statement...........................................     2
Hon. Michael F. Doyle, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     4
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     5
    Prepared statement...........................................     6
Hon. Doris O. Matsui, a Representative in Congress from the State 
  of California, opening statement...............................     7

                               Witnesses

Trey Forgety, III, Director of Governmental Affairs, National 
  Emergency Number Association...................................     9
    Prepared statement...........................................    12
    Answers to submitted questions...............................
Walt Magnussen, Director, Internet2 Technology Evaluation Center, 
  Texas A&M University...........................................    19
    Prepared statement...........................................    21
    Answers to submitted questions...............................
Mary Boyd, Vice-President, Regulatory, Policy and External 
  Affairs, West Safety Services, on Behalf of Industry Council 
  for Emergency Response Technologies............................    29
    Prepared statement...........................................    31
    Answers to submitted questions...............................
Barry Ritter, Executive Director, Statewide 911 Board, State of 
  Indiana........................................................    41
    Prepared statement...........................................    43
    Answers to submitted questions...............................
Steve Souder, Former Director, Fairfax County 9-1-1, Maryland 
  Emergency Number (9-1-1) Systems Board.........................    48
    Prepared statement...........................................    50
    Answers to submitted questions...............................

                           Submitted Material

Article entitled , ``Update to 911 issue in Dallas,'' Dallas City 
  News Releases, March 16, 2017, submitted by Mr. Long...........    81
Statement of the Peace Officers Research Association of 
  California, submitted by Mr. Long..............................    84

 
                REALIZING NATIONWIDE NEXT-GENERATION 911

                              ----------                              


                       WEDNESDAY, MARCH 29, 2017

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2123 Rayburn House Office Building, Hon. Marsha Blackburn 
(chairman of the subcommittee) presiding.
    Members present: Representatives Blackburn, Lance, Shimkus, 
Latta, Guthrie, Olson, Kinzinger, Bilirakis, Johnson, Long, 
Flores, Brooks, Collins, Walters, Costello, Walden (ex 
officio), Doyle, Welch, Clarke, Loebsack, Ruiz, Eshoo, Engel, 
and Matsui.
    Staff present: Ray Baum, Staff Director; Chuck Flint, 
Policy Coordinator, Communications and Technology; Gene 
Fullano, Detailee, Communications and Technology; Theresa 
Gambo, Human Resources/Office Administrator; Giulia 
Giannangeli, Legislative Clerk, Digital Commerce and Consumer 
Protection/Communications and Technology; Kelsey Guyselman, 
Counsel, Communications and Technology; Brandon Mooney, Deputy 
Chief Energy Advisor; Mark Ratner, Policy Coordinator; David 
Redl, Chief Counsel, Communications and Technology; Dan 
Schneider, Press Secretary; Hamlin Wade, Special Advisor, 
External Affairs; Jeff Carroll, Minority Staff Director; Alex 
Debianchi, Minority Telecom Fellow; David Goldman, Minority 
Chief Counsel, Communications and Technology; Jerry Leverich, 
Minority Counsel; Lori Maarbjerg, Minority FCC Detailee; and 
Dan Miller, Minority Staff Assistant.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Good morning. The Subcommittee on 
Telecommunications and Technology will now come to order and 
the chair now recognizes herself for 5 minutes for an opening 
statement.
    The evolution in communications technology continues to 
change the lives of Americans and for the better. The 
transition to the internet protocol technology underlying next 
generation 911 service from the circuit-based networks of 
yesterday is a compelling example of this.
    Traditional 911 services permitted a voice call through the 
local phone company switch to be transferred directly to a 
public safety answering point, or PSAP.
    Next-Gen 911 takes advantage of the robust capabilities of 
today's and tomorrow's digital networks and will allow the 
lifesaving call to take the form of voice, text or video from 
any wired, wireless, or IP-based device routed over a broadband 
network.
    Realizing Next Generation 911 services throughout the 
nation is critical, but as with any large-scale transition 
there are challenges to overcome. Issues regarding such matters 
is funding, governance, ensuring the security of the network 
are a few and the cost will be significant.
    Yet, while funding is a challenge, studies reveal a 
troubling pattern whereby some states divert money collected 
from consumers intended for 911 services that could assist with 
the transition. The FCC reports that approximately $220 
million, or 8.4 percent, of the total amount of fees collected 
by the states to fund 911 were diverted for non-911 purposes. 
This was in 2015 alone.
    Every member of this committee should agree to work 
aggressively on this issue.
    Our witness from the state of Indiana, Mr. Ritter, tells us 
in his testimony that a state's approach to governance is an 
important component of a successful transition.
    The majority memorandum notes that approximately have of 
the states have established 911 boards or similar entities. I 
look forward to a better understanding of how this coordinated 
command may facilitate transition.
    And we are all aware the IP-based networks will be 
vulnerable to cyberattack. The FCC has said that additional 
work must be done to protect these networks including 
encrypting data to ensure the integrity of traffic.
    What more can be done and what is the best approach? With 
that said, we should recognize that this transition is underway 
and these challenges are not insurmountable.
    According to an FCC report, 12 states report that NG911 is 
operational in 100 percent of the state. My home state of 
Tennessee is among those 12. A solid start for our nation but 
well short of where we ought to be.
    We have taken steps to facilitate the transition. Most 
recently in 2012 this committee under Chairman Walden's 
leadership was instrumental in passage of the Middle Class Tax 
Relief and Job Creation Act, which not only created First Net 
to bring state of the art communication capabilities to our 
nation's first responders but also sought to further the NG911 
transition.
    Republicans and Democrats must agree that having a modern 
911 emergency repose system is a national necessity. I look 
forward to our conversation today and I yield the remaining 
time to Ms. Brooks for an introduction.
    [The prepared statement of Mrs. Blackburn follows:]

              Prepared statement of Hon. Marsha Blackburn

    Welcome to the Communications and Technology Subcommittee's 
hearing titled: ``Realizing Nationwide Next-Generation 911.'' 
Also, thank you to our witnesses for appearing here today to 
offer your expertise.
    The evolution in communications technology continues to 
change the lives of Americans, and for the better. The 
transition to the Internet Protocol technology underlying Next 
Generation 911 service from the circuit-based networks of 
yesterday is a compelling example of this. Traditional 911 
services permitted a voice call through the local phone 
company's switch to be transferred directly to a Public Safety 
Answering Point or ``PSAP.'' Next Gen 911 takes advantage of 
the robust capabilities of today's and tomorrow's digital 
networks and will allow that lifesaving call to take the form 
of voice, text, or video from any wired, wireless, or IP based 
device routed over a broadband network.
    Realizing NG911 services throughout the Nation is critical, 
but as with any large-scale transition there are challenges 
that must be overcome. Issues regarding such matters as 
funding, governance, ensuring the security of the network are 
but a few. The cost will be significant. Yet while funding is a 
challenge, studies reveal a troubling pattern whereby some 
states divert money collected from consumers intended for 911 
services that could assist with the NG911 transition. The FCC 
reports that approximately $220 million--or 8.4 percent of the 
total amount of fees collected by the states to fund 911 was 
diverted for non-911 purposes in 2015. Every member of this 
Committee should agree to work together to tackle this issue 
aggressively.
    Our witness from the state of Indiana, Mr. Bitter tells us 
in his testimony that a state's approach to governance is an 
important component of a successful transition. The majority 
memorandum notes that approximately half of the states have 
established 911 boards or similar entities. I look forward to a 
better understanding of how a ``centralized command'' may 
facilitate the transition.
    And we are all aware that these IP-based networks will be 
vulnerable to cyberattack. The FCC has said that additional 
work must be done to protect these networks, including 
encrypting data to ensure the ``integrity'' of traffic. What 
more can be done? What is the best approach as we move forward?
    With that said, we should recognize that this transition is 
underway and these challenges are not insurmountable. According 
to an FCC report, twelve states report that NG911 is 
operational in 100 percent of the state--my home State of 
Tennessee among them. A solid start for our Nation but well 
short of where I think we need to be.
    We have taken steps to facilitate the transition. Most 
recently, in 2012, this Committee, under the leadership of 
Chairman Walden, was instrumental in passage of the Middle 
Class Tax Relief and Job Creation Act which not only created 
FirstNet to bring state-of-the-art communications capabilities 
to our Nation's first responders, but also sought to further 
the NG 911 transition. In addition, to more in grant funding, 
we called for a study of the costs to move to NG911 and annual 
reports to keep us informed of progress. Unfortunately, we are 
still waiting. Republicans and Democrats can both agree that 
having a modern 911 emergency response system in place is a 
national necessity. As our witnesses today share their stories 
and expertise, we have an opportunity to learn what works best, 
what is most efficient, and what will get us there quickly. I 
look forward to working with my colleagues on the other side of 
the aisle. Thank you.

    Ms. Brooks. Thank you, Madam Chair, and I would like to 
welcome a Hoosier to Washington, Barry Ritter, the executive 
director of Indiana 911.
    Along with Mr. Ritter, Kelly Mitchell, the Indiana state 
treasurer also in attendance, and Treasurer Mitchell chairs the 
state 911 board and is actually the only treasurer in the 
country in this role. And so welcome, Ms. Mitchell.
    Mr. Ritter originally joined the state as the director of 
the Wireless 911 Advisory Board in 2010. He was an active 
participant in the 2012 session of the legislature which 
brought about fundamental changes in the funding model in 
Indiana and operational responsibilities for 911 in Indiana, 
most notably the creation of the statewide 911 board.
    Prior to joining the board he served for 4 years as the 
director of the Wayne County Consolidated Communications Center 
in Richmond, Indiana.
    He came into the world of 911 after serving more than 20 
years as a police officer for the city of Richmond, and during 
his career he held several assignments in the agency, 
eventually serving as deputy chief of police.
    Mr. Ritter earned his degree from Vincennes University and 
received his emergency number professional designation through 
the NENA Institute in 2009.
    We welcome your testimony today, Mr. Ritter, and appreciate 
you being here to provide this panel and to provide the other 
members here with your background and expertise.
    I yield back. Thank you.
    Mrs. Blackburn. Gentlelady yields back.
    Mr. Doyle, you are recognized for 5 minutes for an opening.

OPENING STATEMENT OF HON. MICHAEL F. DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Doyle. Well, thank you to the witnesses for being here 
today and thank you, Madam Chair, for calling this hearing.
     The state and future of 911 systems in this country is a 
critical issue. As we move forward with the deployment of the 
national public safety broadband network for first responders 
we need to recognize the importance of 911 service and then 
need for modernization for both the people that take 911 calls 
and those that are sent to respond to them.
    While Congress has allocated billions in funding in 
spectrum to leverage the construction and deployment of 
FirstNet, we have only allocated $115 million for Next-Gen 911.
    And while states and localities have an important role to 
play, we need to ensure that they have a strong partner in the 
federal government that is able to direct funding, expertise, 
and scale at this challenge.
    I am disappointed that we are sitting here today without a 
clear idea of how much upgrading our nation's 911 
infrastructure will cost or what the ongoing cost will be of 
sustaining world class 911 infrastructure throughout the 
country.
    I think what's clear is that the current funding mechanisms 
are not sufficient to meet current needs or to fund the next 
generation of upgrades.
    I would call on the majority to work with us to advance 
legislation to address these issues. And while I commend the 
work being done by the witnesses here to attack the problem, we 
need national solutions because citizens will not adopt these 
new technologies if they are not uniformly deployed and 
uniformly functional on a national basis.
    We are far past the time when localities should have a 
patchwork of solutions where some accept text messages, 
pictures, and videos and others are still working with 
technology from the '70s.
    Smart phones and smart devices are the present and the 
future of emergency communications. As the testimony shows, the 
future of Next Gen 911 are vehicle collision notifications 
being sent to 911 call centers, and companies like Nest and 
other smart home safety and security products which are already 
warning consumers about incidents in their homes.
    We need to be sure that both consumer, commercial and 
municipal IOT infrastructure can communicate effectively with 
first responders.
    Recently, there have been a number of 911 outages in our 
country. This month roughly 46 million AT&T customers lost 
access to 911 service for five hours. Approximately 12,600 
people tried to dial 911 and weren't able to get through.
    More than AT&T's outage, a Dallas call center was 
overwhelmed by abandoned 911 calls and we have reports of 
similar cases throughout the country.
    Some of these instances seem due to understaffing while 
others the root causes are still not clear. What is clear is 
that we are still facing challenges in places meeting basic 
service standards.
    I would just add that compromised smart phones have already 
been used to attack the nation's 911 system. As the witnesses 
point out, moving the 911 system to an IP-based system opens up 
call centers to great cybersecurity challenges also.
    Deploying Next-Gen 911 services isn't just about expanding 
the ways people access emergency services. It's also about 
making sure these services are more redundant, more reliable 
and more useful.
    I hope this hearing is educational to our members. I look 
forward to hearing the testimony of the witnesses and I would 
be happy to yield the remainder of my time to any member of the 
subcommittee that wants to use it.
    Seeing none, Madam Chair, I'll yield back.
    Mrs. Blackburn. The gentleman yields back and the chairman 
of the full committee, Mr. Walden, you are recognized for 5 
minutes.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. I thank you very much and I thank you for 
holding this very important hearing as we move forward in our 
work in this area.
    This morning we convene to examine the progress in the 
deployment of Next Generation 911. As a matter of coincidence, 
the timing could not have been better.
    Yesterday, FirstNet announced that it took the next step in 
its competitive bidding process. It's expected FirstNet will 
soon execute a contract to form a public-private partnership in 
order to deploy a single nationwide wireless broadband network 
for our first responders.
    Nearly 13 years after the 9/11 commission reported 
highlighted grave deficiencies in the first responder 
communications, the most up to date communications capabilities 
will finally be at the fingertips of our brave men and women 
who protect us daily.
    Today, we all carry devices in our pockets. They allow us 
to communicate by voice, by text, by email, by video and now 
that we are at the threshold of deployment of FirstNet our 
nation's first responders will have a dedicated network to do 
the same. This is really important work.
    But our 911 networks, which are based on the technologies 
of the past, do not provide the seamless connection between the 
two.
    Only by bringing IP-based technology to the nation's public 
safety answering points, the professionals that are the first 
voice you hear when you call for help, can we bring the full 
promise of modern technology to serve us in times of emergency.
    In 2012 when we passed the Middle Class Tax Relief and Job 
Creation Act, which created FirstNet, we also took steps to 
facilitate the deployment of Next Generation 911.
    We engaged the 911 implementation coordination office to 
work with the state and local authorities, asked for a report 
on the cost of NG911 and established a matching grant program. 
We did all that as the work of this committee.
    Unfortunately, for reasons that were never made clear, in 
response to our bipartisan inquiries the prior administration 
did not get that funding out the door nor did they produce the 
report. They failed on both counts.
    Today, I hope we can get a measure of how far the 
transition to NG911 has come and some ideas about how to 
accelerate it. We understand there will be costs involved in 
the efforts of this magnitude.
    This is big stuff. I realize that. We have done a lot of 
oversight hearings over FirstNet and all of this along the way.
    But FirstNet and its participating states have shown there 
are smart ways to approach such complex public safety 
undertakings. Some states report they are already Next 
Generation 911 capable and many others are pursuing the 
transition.
    So these states should be applauded for their efforts. 
However, while nearly every state collects money from their 
citizens for 911, some states have taken moneys collected for 
911 and then used it for other unrelated purposes. This cannot 
continue, period.
    Aside from the fact that this erodes the public trust, it 
ultimately impairs the transition to NG911 for the nation as a 
whole.
    I look forward to the hearing, your testimony today. My 
thanks to all of you for sharing your experiences and wisdom 
with us and I hope we will leave with a better understanding of 
what works and how we can use these lessons to move forward in 
a manner that best delivers Next Generation 911 services to our 
nations and our communities.
    And I apologize in advance. I have got two subcommittees 
meeting simultaneously and will be bouncing between the two. 
Your testimony was terrific. We look forward to working with 
you.
    And I don't see Mr. Flores. I know he may be on his way but 
he wanted to introduce one of our witnesses, Madam Chair. But 
in absence of that if anybody wants the remainder of my time I 
am happy to yield it.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    This morning we convene to examine the progress in the 
deployment on NextGeneration 911. As a matter of coincidence, 
the timing could not be better. Yesterday, FirstNet, announced 
that it took the next step in its competitive bidding process. 
It is expected FirstNet will soon execute a contract to form a 
public-private partnership in order to deploy a single, 
nationwide wireless broadband network for our first responders. 
Nearly 13 years after the 9/11 Commission Report highlighted 
grave deficiencies in first responder communications, the most 
up-to-date communications capabilities will finally be at the 
fingertips of the brave men and women who protect us daily.
    Today we all carry devices in our pockets that allow us to 
communicate by voice, by text, by email, and by video. And now 
that we are at the threshold of deployment of FirstNet, our 
nation's first responders will have a dedicated network to do 
the same. But our 911 networks, which are based on the 
technologies of the past, do not provide a seamless connection 
between the two. Only by bringing IPbased technology to the 
Nation's Public Safety Answering Points--the professionals that 
are the first voice you hear when you call for help--can we 
bring the full promise of modern technology to serve us in 
times of emergency.
    In 2012, when we passed the Middle Class Tax Relief and Job 
Creation Act, which created FirstNet, we also took steps to 
facilitate the deployment of next-generation 911. We engaged 
the 911 Implementation Coordination Office to work with state 
and local authorities, asked for a report on the cost of NG911, 
and established a matching grant program. Unfortunately, for 
reasons that were never made clear in response to our 
bipartisan inquiries, the prior administration didn't get that 
funding out of the door nor did they produce the report.
    Today, I hope we can get a measure of how far the 
transition to NG911 has come and some ideas about how to 
accelerate it. We understand that there will be costs involved 
in an effort of this magnitude. But FirstNet and its 
participating states have shown there are smart ways to 
approach such complex public safety undertakings.
    Some states report that they are already NG911 capable and 
many others are pursuing the transition. These states should be 
applauded for their efforts. However, while nearly every state 
collects money from their citizens for 911, some states have 
taken monies collected for 911 and used it for other purposes. 
This cannot continue. Aside from the fact that this erodes the 
public trust, it ultimately impairs the transition to NG911 for 
the nation as a whole.
    I look forward to hearing today's testimony. My thanks to 
all of you for sharing your experiences and wisdom with us 
today. I hope that we will leave with a better understanding of 
what works and how we can use these lessons to move forward in 
a manner that best delivers NG911 services to our nation's 
communities.

    Mrs. Blackburn. Does anyone seek the time?
    Mr. Walden. Seeing none, I yield back to the chair.
    Mrs. Blackburn. And we know that Mr. Flores wanted to 
introduce this good Texas Aggie we have before us. But we are 
going to welcome him anyway.
    Ms. Matsui, you are recognized on Mr. Pallone's 5 minutes.

OPENING STATEMENT OF HON. DORIS O. MATSUI, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Matsui. Thank you very much, Madam Chair, and thank you 
very much for holding this hearing today, and I want to thank 
the witnesses for being here today and I look forward to your 
testimonies.
    This morning's hearing highlights the challenges facing our 
911 system. Not only are we under funding our current 911 
infrastructure, we are also failing to make investments to make 
Next Generation 911 a reality.
    As consumers, all of us have seen the incredible advances 
in technology. In just the last decade we used our smart phone 
to do so much more than make phone calls. These devices can 
take pictures, send text messages and record video.
    These tools could give first responders critical 
information. But today, very few 911 call centers can receive 
them.
    It is critical that we accelerate deployment of the Next 
Generation 911, 9-1-1, because it could improve access to 
emergency services for so many Americans, like people with 
disabilities and victims of domestic violence.
    We need to work together because this technology could 
truly save lives. At this time I'd like to yield time to my 
colleague from New York, Mr. Engel.
    Mr. Engel. Thank you. I thank my friend from California for 
yielding to me. Earlier this month, millions of wireless 
customers had to deal with the cascading nationwide failure of 
911 service in my district in New York all the way to 
Washington and California.
    I look forward to the results of the FCC's investigation 
into this incident. But it speaks to a much larger problem. Our 
911 infrastructure is outdated, bordering on obsolete.
    For some time now we have had the technology to do a much 
better job of pinpointing the location of callers even within 
buildings. 911 call centers could take texts and other media 
and secure ESInets, could share information and even calls 
across 911 systems.
    But we haven't made these leaps in part because there has 
been no commitment and in part because there has been no 
funding. So this gets into an even broader story about aging 
infrastructure across the board.
    From roads and bridges to the energy grid to our national 
cyberdefense, we need to make major investments in any number 
of different areas.
    Tax cuts and credits alone aren't going to cut it. We need 
to make serious investments. I know that a lot of our witnesses 
here today will be or less unanimous on the question of whether 
we should be taking these steps on Next-Gen 911 and I hope the 
subcommittee can come to some agreement about a smart way to 
move forward with some of those much needed advances.
    But it's important to remember through all this that e-911, 
the main federal grant program that supports 911 services 
across the country, is a joint program of the Department of 
Commerce, specifically NTIA, and the Department of 
Transportation, specifically NHTSA, and the White House's 
budget proposal would slash these two departments by 16 percent 
and 13 percent respectively.
    Massive cuts at a time when we need to be making smart 
investments, to me those two things aren't smart and don't go 
together.
    So I want to thank the witnesses for their testimony and 
their commitment to helping keep Americans safe. I hope that 
this hearing today can continue the conversation that we need 
to have about investing in our infrastructure and I hope that 
this subcommittee can take the lead on moving our 
infrastructure into the 21st century.
    I believe that support of our infrastructure should be, can 
be, and will be a bipartisan move and I hope we can do that.
    I thank you. I yield back, unless Ms. Matsui wants her time 
back or anybody else.
    Ms. Matsui. Anyone else want to have time?
    I yield back, Madam Chair.
    Mrs. Blackburn. The gentlelady yields back and that 
concludes our opening statements.
    I remind all members that pursuant to committee rules all 
members' statements will be made a part of the opening 
statements record.
    With that, we want to thank all of our witnesses for being 
here today and for taking your time to testify before the 
committee.
    I also want to thank you for submitting your testimony well 
prepared. Today's hearing will consist of two panels. Each 
panel of witnesses will have the opportunity to deliver 
statements and to answer questions.
    So we will begin why welcoming Mr. Trey Forgety who, by the 
way, has Tennessee ties. We like that. And Mr. Magnussen, I 
would suggest that, being a Texan, you get to know the young 
man. Wouldn't be a Texas without Tennessee.
     So glad you all are seated next to each other and--well, 
or Kentucky either. That's exactly right. We volunteer to do--
somebody's giving me the hook 'em horns back there. So put your 
hand down. I saw it.
    Mr. Forgety is the director of governmental affairs and 
regulatory counsel at National Emergency Number Association. 
Mr. Walt Magnussen serves as the director of the Internet to 
Technology Evaluation Center at Texas A&M University.
    Ms. Mary Boyd, who is the VP of regulatory policy and 
external affairs at West Safety Services, Ms. Boyd is 
testifying on behalf of the Industry Council for Emergency 
Technologies.
    Mr. Barry Ritter, who was so ably introduced by 
Congresswoman Brooks, and she is leading our effort, Mr. 
Ritter, as we look at NG911, she is leading that effort on 
behalf of your subcommittee and the committee at large and we 
thank her for that and we thank you for doing such a great job 
helping to--her to understand and to grow and to know all about 
this issue.
    Mr. Steve Souder, who is representing the Maryland 
Emergency Number 911 Systems Board--he was previously the 
former director at Fairfax County 911.
    We appreciate all of you being here. We will begin the 
panel with you, Mr. Forgety. You are now recognized for 5 
minutes for an opening statement.

   STATEMENTS OF TREY FORGETY, III, DIRECTOR OF GOVERNMENTAL 
AFFAIRS, NATIONAL EMERGENCY NUMBER ASSOCIATION; WALT MAGNUSSEN, 
  DIRECTOR, INTERNET2 TECHNOLOGY EVALUATION CENTER, TEXAS A&M 
 UNIVERSITY; MARY BOYD, VICE-PRESIDENT, REGULATORY, POLICY AND 
 EXTERNAL AFFAIRS, WEST SAFETY SERVICES, ON BEHALF OF INDUSTRY 
  COUNCIL FOR EMERGENCY RESPONSE TECHNOLOGIES; BARRY RITTER, 
  EXECUTIVE DIRECTOR, STATEWIDE 911 BOARD, STATE OF INDIANA; 
 STEVE SOUDER, FORMER DIRECTOR, FAIRFAX COUNTY 9-1-1, MARYLAND 
             EMERGENCY NUMBER (9-1-1) SYSTEMS BOARD

                   STATEMENT OF TREY FORGETY

    Mr. Forgety. Thank you, Madam Chairwoman, and Ranking 
Member Doyle for hosting this hearing. It's a great pleasure 
for me to appear before you and an honor to appear beside such 
an August panel here. I mean, you really have all of the heavy 
hitters from the 911 industry sitting next to me here. So it's 
great to appear with them.
    The reason we are here, ultimately, is the way that we 
communicate in the United States has changed radically over the 
last 30 years.
    We are now a nation that has more wireless connections, 
more devices, more gadgets, more things that can connect to a 
network than we have people. And all of those devices are being 
used by consumers in ways that we could not have imagined only 
a few short decades ago.
    Already text and video communications, things like FaceTime 
and WhatsApp and Facebook are overtaking voice. People don't 
communicate with a telephone call anymore. For people in my 
generation and younger, that is not our first instinct. When we 
want to reach out and touch somebody we are more likely to make 
a video call or send a text.
    But 911 has not changed at the same time. Today's 911 
systems are still using technology that was invented in the 
'60s and '70s and deployed in the '80s and '90s.
    These systems make it very difficult to move calls around 
to ensure the availability and to defend networks against new 
kinds of attacks.
    The unfortunate thing about this, when you get right down 
to it, in today's modern networks we don't move things around 
my moving wires anymore. But for most 911 systems, if you want 
to make a change that is literally what it takes.
    Someone's got to physically go down to a telephone company 
office and move some wires around on a panel. That's terribly 
disappointing. It ought to be a lot simpler than that.
    Well, NG911 changes all of that. It makes it a lot simpler. 
NG911 has native support for voice, video, text, pictures, and 
data and built-in resiliency and reliability features that 
allow us to do things like reroute calls, efficiently visualize 
and map where they are coming from in three-dimensions, which 
is a big deal in bigger cities. And it also gives us new tools 
to defend these networks, modern tools, that as long as we live 
in the telephone network we simply won't have access to.
    Another great point about NG911, this is homegrown high-
tech innovation-focused technology. It uses the same 
technology, the same internet era technologies, that Apple and 
Google and Facebook and Snap use underlying all of their 
services like iMessage and Snapchat and Facebook Messenger.
    That's a really powerful thing because if you want the 
citizenry to have access to 911 in the way that they 
communicate you've got to make it easy for the technology 
developers and cheap to implement. It's got to be inexpensive.
    If you can't do those two things you won't have widespread 
adoption and you won't get the full advantage of these new 
technologies that we have. When our folks went and looked at 
how do we design Next Generation 911 for the future that was a 
key design element.
    It was let's make it easy, let's make it the commercial 
off-the-shelf technologies that these folks use every day and 
let's make it as inexpensive as possible.
    This also represents a new export for the United States. 
Already Next Generation 911 has been adopted as the target 
goal, as the standard in Canada to our north and it's being 
modified a little bit for use in the NG 112 systems that'll be 
deployed throughout Europe.
    So this is something that--our homegrown technology is now 
being exported around the world in a way that will benefit our 
industry and our global public safety community.
    We need this technology now. We need NG911 now. The 
transition costs for local governments if this transition is 
delayed are going to explode.
    Maintaining legacy infrastructure that you can't get parts 
for anymore, that you can't get technicians who even remember 
ever being trained on how to operate it, doing those things 
long term is going to be devastating for the more than 2,000 
counties and cities that operate the 6,800-plus public safety 
answering points, or PSAPs, in the country.
    Not only that, but delaying the transition will also darken 
the outlook for our nation's field responders. A number of 
members of the committee mentioned in their opening statements 
FirstNet.
    FirstNet is built on the same sorts of technologies as 
NG911 and as consumer networks that are transitioning very 
rapidly to all-IP basis whether it is wireline or wireless.
    So we need to make sure that we have got the system in the 
middle that sits between the IP networks for consumers and the 
ones for FirstNet. Those need to be NG911.
    They need to be all IP and they need to be that now. 
Congress can accelerate this transition with a one-time 
injection of federal capital to ensure a coordinated efficient 
rollout of shared databases, networks, and systems and avoid 
wasteful duplication and proprietary noninteroperable 
technology deployment.
    Madam Chairwoman, I thank you for holding the hearing and I 
welcome your questions.
    [The prepared statement of Mr. Forgety follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     
    Mrs. Blackburn. Thank you, sir.
    Mr. Magnussen, you're recognized for 5 minutes.

                  STATEMENT OF WALT MAGNUSSEN

    Mr. Magnussen. Good morning, Chairwoman Blackburn, Ranking 
Member Doyle and esteemed committee members.
    It is a real honor for me to be here today and as was 
mentioned earlier I've been the director at Texas A&M 
University of the center since 2004.
    And while it's seen a lot of progress over those years we 
still have a long ways to go. However your support can and will 
make a big difference in accelerating the nationwide NG911 
transition.
    I would also like to begin my testimony here this morning 
by noting that my center does have a contract with the United 
States Department of Justice for the NIJ, the National 
Institute of Justice, and while I am testifying today on behalf 
of my work at Texas A&M University, none of the statements that 
I make today represent the policies of the United States 
Department of Justice.
    Other witnesses have either or will likely talk about what 
is NG911 and why is it important. I would like to take my time 
to discuss areas where the efforts of this committee and of 
Congress can really have the most impact.
    This information is based on a study that we did in 2004 
that was funded by the ICERT, the same organization mentioned a 
few seconds ago, and in essence there were four findings that I 
have in my recommendations that were based on that study and 
really two recommendations that come as subsequent issues.
    So those six issues are number one again is to incentivize 
states to establish an oversight coordinating authority. Most 
states have already done this. Most states have coordination 
within the states.
    However, in some states the function of NG911 is simply a 
matter of collecting the fees from the telephone companies and 
passing it on down.
    While it's possible for a state to implement NG911 within 
the state without central coordination, it's actually very, 
very difficult. So, again, anything you could do to resolve 
that we would greatly appreciate it.
    As Mr. Forgety, who, by the way, we have worked together 
for 10 years now--it's been a fantastic relationship so a very 
good person--the second one is really to require federal or 
require federally assisted-provided funding to link to the NENA 
I3 standard.
    The I3 standard we began work on it in 2004. It's been 
adopted by the majority of the 911 industry associations. It is 
standards-based.
    It is based on other standardized technology such as 
standards that are adopted by the internet community and by 
other standards organizations and in that sense it will 
ultimately reduce costs and ensure interoperability and that is 
very important for public safety.
    Number three, provide interim funding. As Mr. Forgety also 
just mentioned, while many of the states have been able to go 
ahead and then get through the process of supporting e-911 on 
their own, there is little doubt that in essence the transition 
to NG911 is going to incur additional costs during the 
transition process.
    We probably can survive on our own once we get through that 
transition but in essence getting through that transition could 
require a little bit of additional support.
    Number four is to establish a national authority and fund a 
national NG911 network to provide interconnectivity between the 
states.
    The states are doing a fantastic job of managing resources 
within the states. However, voice over IP is a national issue. 
It's a national service, and there is a requirement in essence 
for these state networks to be interconnected.
    While simply peering between states is possible, it's not 
the best solution. It's not practical.
    The fifth one is one that basically comes out of a recent 
FCC recommendation in the TFOPA document and it basically calls 
for the establishment of a centralized or some centralized 
cybersecurity centers.
    The unfortunate reality today is that there's a significant 
shortage of cybersecurity experts in the United States. There's 
also 6,500 PSAPs and managing cybersecurity at the PSAP level 
probably is not possible.
    And then lastly is to coordinate international 911 efforts 
between Canada and Mexico. Today, with the e-911 system we 
actually have calls being routed to the wrong country as a 
citizen that is close to the border is having lunch on the 
other side of the border, makes a call and actually the call 
gets routed to the wrong country. That's costing time and, 
obviously, in emergency response time is money--or time is 
lives.
    Yesterday, as was noted earlier, was a big day for 
FirstNet. FirstNet, in essence, now that they're going forward, 
in essence they appreciate the fact--in fact, we were talking 
about it on a panel yesterday--they appreciate the fact that 
services that will come to them that will be delivered to first 
responders, a lot of that information is going to come from the 
citizens.
    It will come through NG911. FirstNet is designed to be 
voice, video, text. NG911 would be the mechanism to deliver 
that.
    So it is important that this effort happen.
    Thank you very much. I appreciate the opportunity to talk 
today and look forward to question.
    [The prepared statement of Mr. Magnussen follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    Mrs. Blackburn. The gentleman yields back.
    Ms. Boyd, you are recognized for 5 minutes.

                     STATEMENT OF MARY BOYD

    Ms. Boyd. Good morning, Madam Chairman.
    Mrs. Blackburn. Microphone, please.
    Ms. Boyd. Oh, thank you. My apologies.
    Good morning, Madam Chairman, Ranking Member Doyle, members 
of the committee. I am Mary Boyd, vice president of regulatory 
policy for West Safety Service.
    But I am honored to be here this morning really on behalf 
of the Industry Council for Emergency Response Technologies, 
often we call ICERT.
    ICERT is appreciative of your interest in NG911 and 
assisting in the advancing of this technology. I'd also speak 
to you this morning from my heart.
    I have been in this business 35 years at local state 
government levels as well as the private sector but, more 
importantly, my household is public safety.
    My husband spent his career in law enforcement and our 
youngest son, Derry, climbs in an Aerovac helicopter to respond 
to rural Texas emergencies. So if we can give them the 
technologies that keep them alive as well as the people they're 
trying to save, let's partner to get this done.
    We have talked this morning about the benefits of Next-Gen 
911 but I'd like to just focus on a few of the elements that 
could really help public safety do their job a little bit 
easier.
    The simple fact we talked about text, we take it for 
granted that we can text to one another, text to our kids, our 
grandchildren's photos. But, unfortunately, very few of our 911 
centers in the country have the ability to receive a text to 
911 call.
    But yet our speech and hearing impaired community rely on 
that communication to talk to their families but they also need 
to talk to public safety.
    We have very few, probably a thousand in the country, of 
PSAPs that have deployed that. A Next-Gen infrastructure would 
make that much easier to deploy throughout the community.
    The technology companies are ready to do that. We just need 
the partnership of government. Also, in an era of increased 
sensitivity to security, national safety, first lines of 
defense, information is critical.
    So imagine the ability for a PSAP to receive the photo of a 
suspect. I suspect any law enforcement entity in this country 
would value that piece of information instead of getting the 
verbal description of perhaps they were wearing a t-shirt with 
blue jeans and a ball cap.
    We have that technology available today to send the photos 
in as well as video. Another benefit of Next-Gen on an IP 
network is information about the scene.
    A helicopter if flying into a rural area in your state in 
the middle of the night. It would be wonderful for them to know 
whether they were going to hit utility lines.
    Are they going to have a fuel storage tank that they're 
unaware of? Are your volunteer firefighters responding to the 
same?
    Next-Gen 911 affords our first responders wonderful 
information when it is partnered with FirstNet. Another most 
valuable benefit of an IP network is the redundancy, 
resiliency, and basically the ability to move networks' voice 
and data around.
    Today, our 911 centers are tethered with outdated 
technology from the '70s. We cannot move voice and data easily.
    So if you have an overburdened 911 center with a spike of 
call volume or you have a natural disaster--Vermont is a 
perfect example with their Next-Gen system. When the hurricane 
hit Vermont, they did not lose one 911 call but yet they did 
have a PSAP impacted. So they easily changed the traffic to a 
backup facility.
    But as I said, unfortunately most of our technologies today 
are outdated throughout our public safety agencies and they do 
pose a risk when we are trying to advance technologies and aid 
public safety.
    ICERT believes that Congress can take a leadership role in 
a consensus legislation that makes NG911 funding and 
implementation a national priority and we applaud your efforts 
to take this subject on.
    We would also encourage you that if you have a much larger 
discussion about broadband and funding that you place NG911 at 
the core of those discussions.
    It is important, as you indicated, that we do recall 
Congress played a critical role in our country for the initial 
deployment of 911. In fact, some of my systems we updated in 
Texas were from the LEAA funds.
    So we think it is very appropriate that you look at Next-
Gen 911 funding as indicated by Walt and Trey just for the 
capital upfront cost for local--state and local government.
    We are not asking Congress to endure the entire cost but we 
do know that we have an impediment today because funds are 
lacking at the state level to cover the upfront implementation.
    So members, we want to thank you for your time this 
morning. I know I am running very short and feel like I've just 
given you a drink out of a fire hose.
    But 911 cannot fall behind. FirstNet and NG911 should be 
partnered. We thank this committee for this opportunity. We 
look forward to working with you.
    [The prepared statement of Ms. Boyd follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
       
    Mrs. Blackburn. Thank you so much.
    And Mr. Ritter, you are recognized. Five minutes.

                   STATEMENT OF BARRY RITTER

    Mr. Ritter. Chairman Blackburn, Ranking Member Doyle, 
members of the subcommittee, thank you for the opportunity to 
be here today. I am honored to share the story of success in 
the great state of Indiana. Thank you, Ms. Brooks, for that 
kind introduction.
    In 1996, the General Assembly created the Wireless Advisory 
Board, predecessor to the now statewide 911 board. Established 
as a body corporate and politic, it is separate from state 
government.
    However, the board's powers constitute an essential 
government function. This board is chaired by the state 
treasurer, a single elected official which we credit for the 
success that we have shared in Indiana.
    As the state's 911 authority, the board has two primary 
responsibilities. The first is to oversee the statewide 911 
system that has been and will be deployed across the state.
    The second is to administer the funding that supports that 
uniform statewide 911 program. Established as a state trust 
fund, the funds have a targeted use authorized by statute.
    Our funds have never been diverted or raided in the state. 
This governance model permitted the board to deploy wireless 
911 service and now Next-Gen 911 service on a very aggressive 
schedule.
    Generation One of the original wireless network began in 
2004 and was completed in 2006. This work brought the cost of 
wireless 911 under control and began the goal of uniform 
service.
    Completed in 2010, Generation Two included the build out of 
our ESInet and established connectivity to all bordering 
counties in Michigan, Ohio and Kentucky.
    Those bordering PSAPs now have the ability to transfer 
calls and handset location information across state lines. In 
2013, as part of the board's strategic plan for Next-Gen 
services, the board commissioned a statewide study of the 
PSAP's legacy networks and call processing equipment.
    The estimated cost to replace the networks and the PSAP 
equipment county by county was enormous. The decision was made 
to manage the transition to Next-Gen 911 networks as a 
statewide project under the authority of the board.
    In 2014, the board published their first request seeking 
proposals for Next-Gen service compliant with NENA's I3 
standard.
    In 2015, the board awarded contracts for dual networks. The 
new IN911 network will operate as a public-private partnership 
with two private vendors.
    The dual network design was a cost effective solution and 
leveraged efficiencies from two providers. ESInets operate 
independently and are responsible for specific service areas.
    However, they connect at the core to provide redundant 
services. The board also required the primary vendor to deploy 
a third tier disaster recovery service. This further ensures 
that calls can be delivered statewide anytime.
    And finally, the board contracted with a third party 
network for monitoring and data analytics. Scheduled for 
completion in the fourth quarter of '17 all PSAPs will be 
served by the new Next-Gen networks.
    Purchased as a service, the board's annual cost will only 
be approximately $15 million to serve all 92 counties. 
Indiana's statewide 911 program benefits from the efficiencies 
provided by modern technologies such as hosted solutions. We 
believe that our design and implementation can serve as a model 
for other state and/or regional programs.
    Our next priority will be to assist local government in 
replacing their legacy call processing equipment, some of which 
is not capable of processing the many types of emergency calls 
that can be generated by the public today.
    It is important to understand that funding alone is not 
enough to achieve Next-Gen in the U.S. Leadership, 
collaboration and cooperation between local, state, and federal 
government and between industry partners and industry 
associations is a must.
    That leadership needs to start here at the federal level. 
911 will continue to be a local service but it needs strong 
leadership and a spotlight on the methods that are proven to 
get results.
    Sustainable funding, strategic planning, and advocacy for 
non-proprietary standards support Next-Gen initiatives. We 
recognize that Next-Gen networks, while separate from FirstNet, 
will serve a critical role in the larger public safety 
initiative.
    Citizens reporting an emergency could improve public safety 
using video, pictures, or other data which can be processed and 
delivered to the PSAP.
    A FirstNet-connected PSAP could then relay the same 
information to and receive from first responders' data to 
improve public safety.
    Thank you for the opportunity to be here and I look forward 
to answering any questions that you may have.
    [The prepared statement of Mr. Ritter follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    Mrs. Blackburn. Thank you, Mr. Ritter.Mr. Souder, you are 
now recognized for 5 minutes.

                   STATEMENT OF STEVE SOUDER

    Mr. Souder. Madam Chairman, good morning. Members of the 
committee, good morning. Thank you again for having me here. It 
is my pleasure to be here.
    I am pleased to say, I am proud to say that I have been in 
911 since the first 911 call was made on February 16th of 1968. 
I could replicate by reading my testimony many of the remarks 
that my colleagues have made before me. But I am instead, with 
your permission, going to speak from my heart.
    In the 20 minutes that we have been testifying here, there 
have been 5,000 911 calls made in the United States of America. 
By the end of this day, there will be 240,000 calls made and by 
the end of this year, 87 million calls made.
    911 is the most recognized number in the United States. It 
is a go-to number every time there is an emergency. It is 
predicated upon technology that was developed in the 1960s. If 
any of us had an antique car that was built in the 1960s we 
would be proud to have a license plate that had adorned to it 
antique.
    That's exactly what our system is today. It is old, it is 
still reliable but it no way is as good as it needs to be. In 
my hand and in your pocket we probably have a smart phone. 
Residing in that smart phone is computing power greater than 
was used to launch Apollo 11 to the moon in 1969, one year 
after 911 was deployed.
    And yet for all of us here if we had to call 911 from this 
room we would simply put 9-1-1 and all we would get would be a 
voice connection. We could not in any way utilize this 
technology which each of us and each of our citizens across 
this nation have to identify where we are, to send photographs 
or videos or medical data that is relative to where we are or a 
patient's condition.
    Yesterday morning at the Commerce Department auditorium I 
had the privilege with other public safety professionals to 
attend the FirstNet authority's board of directors meeting when 
they approved the awarding of an award that will allow the 
FirstNet network to be built out.
    After that was announced, a number of public safety law 
enforcement, fire rescue, EMS chiefs and so forth got up to 
speak and each of them said that with this technology they will 
be able to in the future provide a higher level of information 
and technology to field forces that are responding to an 
emergency and that is absolutely true.
    But 911 has to stay paced with that and Next Generation 911 
gives the 911 community and your citizens the ability to access 
and to provide that information in the future.
    How much it will cost I do not know. I do know this, that 
in 1972 the United States government as a means of promoting 
and advocating and encouraging the deployment of basic 911 back 
then established, as Mary Boyd said, through the Law 
Enforcement Assistance Administration a grant program that 
would allow for communities to be funded so that they could 
kickstart their initial 911 system.
    That was then and this is now, and I would suggest to you 
that America's 911 systems need another kickstart, the 
kickstart that can start right here in the Congress of the 
United States.
    To Mr. Walden's comments earlier, I noted with interest his 
comment about fee diversion. There is a list of those states 
that divert fees.
    I know when I get my phone bill and probably when you get 
yours there is listed a 911 fee, a charge or a tax. It's called 
different things in different communities. But the expectation 
is by you, me, and us that that 911 fee or tax is going to go 
to funding and improving the 911 systems.
    If that money is being diverted for whatever the reason 
that is not good and I, like my colleagues, welcome your 
remarks in the future and thank you again for the opportunity.
    [The prepared statement of Mr. Souder follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. Thank you, sir.
    At this time I will recognize myself for 5 minutes for 
questions as we begin that part of our hearing.
    Mr. Souder, I want to stay with you, if I may. You talk a 
little bit about the antique model that we have existed under 
and needing to kickstart something to boost the NG911 and in 
your testimony you talked a little bit about economy of scale 
and the deployment of NG911.
    I want you to talk just a moment about that economy of 
scale and why you think that is important to the discussion.
    Mr. Souder. Thank you very much.
    Yes, economy of scale--we all know what is behind that 
term. But as it applies to 911 it means this. Currently, there 
are 6,800 911 centers in the United States. By and large, each 
of them have within their facility equipment that drives the 
911 system within that 911 center, if you will.
    When we move to Next Generation 911 through various 
technologies there is the ability to have those same centers 
now simply provide the service but have it hosted by a 
computer, a router or whatever the equipment would be that 
would be centrally located and really providing the 
connectivity and the network to those 911 centers that 
ultimately use it.
    So if we think smart and go about this in a way that 
capitalizes upon the power that we have today with technology, 
we can deploy Next Generation 911 in a more cost effective way 
and that we won't have to replicate every single piece of 
equipment in every PSAP that exists today.
    Mrs. Blackburn. Thank you, sir.
    Mr. Magnussen, you mentioned cost studies in your testimony 
and the FCC did one in 2011. It wasn't comprehensive but I 
noted that there was a substantial difference in outcomes 
between the estimate based on the current 911 system at the 
time and one where there was a consolidation of the PSAPs and 
the PSAPs opted for hosted solutions. And I think the dollar 
difference was $2.68 billion versus $1.44 billion.
    I would love for you to talk for a moment about hosted 
solutions, what that means in context and how that will help to 
drive the cost lower.
    Mr. Magnussen. Consolidation has been a controversial term 
in the 911 community for a long time because there's always 
been a desire to have the call takers be locally hosted, 
locally available.
    However, as was just mentioned a second ago by my esteemed 
colleague, in essence by putting the technology in a cloud 
architecture in that sense you can still do the local call 
receiving, local call taking but you're really doing resource 
sharing and that is really what it's all about.
    The technology is all about--it's the bigger part of the 
cost. Keep in mind that most of the costs borne in the PSAPs 
actually from the staffing level and the building level is 
really done locally anyway. It's not typically out of the funds 
that we are talking about that really end up funding 911 here.
    So, realistically, being able to provide the local control 
of the people and another big difference needs to be understood 
in this too and what we are talking about doing cloud services 
for the most part these are done in what we call a private 
cloud.
    It really scares the public safety community when you start 
talking about doing it on the internet because of the security 
issues and everything else there.
    The emergency services' IP networks that we are talking 
about are based on the same technology and infrastructure as 
the internet but they're not the internet.
    It's a private internet connection. So, in essence, we can 
still manage the security and reliability but have the benefits 
of the resource sharing. That's the whole premise of NG911
    Mrs. Blackburn. So you're tying back to what Mr. Souder 
said on economies of scale?
    Mr. Magnussen. Exactly. Yes.
    Mrs. Blackburn. OK. Mr. Forgety, I saw you shaking your 
head as if you wanted to add something to the discussion.
    Mr. Forgety. So I want to completely agree with and 
associate myself with the remarks made both by Mr. Souder and 
by Mr. Magnussen. We have evidence already that economies of 
scale can tremendously benefit the 911 community.
    In the state of Washington they have deployed an existing 
sort of e-911 solution but they've moved it into a hosted kind 
of fashion where instead of buying 80 or 90 widgets they buy 
three of them, put them in secure high-reliability data 
centers, connect folks to them with redundant connectivity and 
their connectivity costs, even engineering that for redundancy 
and so forth, fell by half.
    That is a tremendous, tremendous, tremendous savings and a 
tremendous benefit to public safety by moving to hosted 
systems, shared services, shared databases. These things don't 
have to be unique around the country.
    Mrs. Blackburn. Thank you for that.
    And in Tennessee we would say that falls in the category if 
it ain't broke don't fix it.
    Mr. Forgety. Yes, ma'am.
    Mrs. Blackburn. All right. My time has expired.
    Mr. Doyle for 5 minutes.
    Mr. Doyle. Thank you. My first question is to Ms. Boyd 
specifically or also to anyone else on the panel that feels 
qualified to answer.
    What are the major challenges to integrating emerging 
internet of thing technologies into our 911 systems? Do you 
think that the current and emerging standards will support the 
types of technologies and volumes of data that are being 
anticipated?
    I know that, for example, technologies like Nest Home 
Protect, while the device will notify the consumer of an 
accident it's still up to the consumer to call 911.
    How do you see this dynamic evolving and do you anticipate 
Next-Gen 911 systems being able to accommodate these 
technologies?
    Ms. Boyd. Yes, sir. Mr. Doyle, the IP infrastructure in a 
Next-Gen environment allows the technologies that you've just 
mentioned to be able to come into the 911 network or into the 
public safety communications center.
    Today in that analog world it's very limited just to a 
telephone number and an address, basically. When you have a 
collision, the crash notification data that can all come in 
through the network in secure and also manageable ways so that 
the communication centers are not overwhelmed with the amount 
of data.
    That is the concern you might hear from public safety is 
how do I manage all this additional information. It will be 
basically parsed and perhaps the street doesn't need that 
information right now as first responders but yet it's 
available to perhaps investigators that need it later.
    So an IP infrastructure really allows in a secure protected 
private network environment the transmission of alarm system 
information, crash notification data, personal medical 
information. Did I answer your question, sir?
    Mr. Doyle. Yes. Does anyone else want to add to that? Mr. 
Forgety?
    Mr. Forgety. I will jump in here just to say that----
    Mr. Doyle. Forgety. Sorry.
    Mr. Forgety. That's all right. I will jump in just to say 
that the internet of things is something that for a long time 
has generated a lot of angst in public safety.
    We are worried about, do we really want every smoke 
detector out there able to call 911, and I think historically 
the answer would have been no simply because the only thing it 
could do was detect whether two wired had crossed or a beam of 
light had been broken or something like that.
    Today, though, we are getting to the point where sensors 
don't work on a one-off basis. We are getting to the point 
where you can have a collection of sensors in a house or an 
apartment that notice with high confidence that there's a fire.
    If the sprinkler water is flowing, if you see a heat flare, 
if there's smoke detectors and so on, you put all those things 
together and you can come to the conclusion that yes, there 
might really be a fire there.
    There is still a lot of work that needs to be done on that 
but we absolutely believe that in the future we'll have that 
ability to take in IOT alerts like that and process them 
intelligently. We have to make sure that we do that so that the 
PSAPs are not overwhelmed, as Mary said. We've got to bring in 
those new automation tools into public safety as well. NG911 
allows us to do that.
    Mr. Doyle. Thank you.
    Mr. Ritter--oh, I am sorry. Mr. Souder, did you want to add 
to that?
    Mr. Souder. Mr. Doyle, thank you.
    Two years ago the Federal Communications Commission 
established the task force on optimal PSAP--public safety 
answering point--architecture. It had nothing to do with brick 
and mortar but it had everything to do with the technology 
infrastructure that would allow for the very items that you 
talk to be accommodated in a Next Generation world.
    That task force is comprised of 40 people from the 911 
profession and industry representing 800 years of 911 
experience, and they produced in December of last year a road 
map for all practical purposes--a road map for any elected, 
appointed or local official to follow to help in deploying Next 
Generation 911 and to consider and accommodate all of the 
various points that you made, and thank you for making it.
    Mr. Doyle. Thank you, Mr. Souder.
    Mr. Ritter, in your testimony you noted that while Next-Gen 
911 is separate from FirstNet, the two are somewhat connected 
in the larger public safety broadband initiative. I believe 
Next-Gen 911 is an essential link in this chain. You have 
people who, more often than not, are contacting 911 through a 
smart phone and you will have first responders using FirstNet 
smart technology on the other end.
    The 911 call center is what connects these two pieces 
together. Could you elaborate a little bit more on what Indiana 
is doing with its FirstNet project and how that fits into your 
state's Next-Gen 911 plans?
    Mr. Ritter. Yes. Thank you.
    The state of Indiana, through their single point of 
contact, is led through the Integrated Public Safety Commission 
that is responsible for the LMR system across the state and 
through that agency I serve on the executive committee as we 
have began to do our analysis and the draft of the state plan 
that has been submitted for review.
    We anticipate that in the future should the Indiana 
governor make the decision to opt in or opt out of this 
initiative. Our Next Generation system will be in place and 
operable for citizens to be able to communicate the 
technologies that has been spoken of here today to the PSAP.
    We envision then the FirstNet network, or broadband 
initiative, to be the tool that delivers the data from the PSAP 
to the first responders and in turn what a first responder may 
encounter back to the PSAP.
    Mrs. Blackburn. All right. Mr. Latta, you're recognized for 
5 minutes.
    Mr. Latta. Well, thank you, Madam Chair, and thank you very 
to our witnesses for being here today. It's a very important 
topic and I would like to start, if I could, Mr. Ritter.
    I have five counties that run parallel or I should say are 
down the Ohio-Indiana line. I was kind of interested when you 
were talking about the counties across the state line with 
Indiana, how you're working with them.
    Now, how does that work so--for calls coming in and out? 
Because, again, just about halfway down the state of Indiana 
that I have a border with you all.
    Mr. Ritter. Yes. The current vendor who operates the 
original wireless network in the state at the request of the 
counties not only in Indiana but those in Ohio we are 
encountering a large number of transfers from the motoring 
public when the call comes from a wireless device and we had no 
way to transfer other than voice. And between the PSAP managers 
and elected officials in those jurisdictions we agreed to build 
our existing network to those individual PSAPs in Ohio that 
would provide the telecommunicator the opportunity to not only 
transfer the voice in a 911 call but the associated call data 
today, the ANI and the ALI, to that adjoining PSAP in the event 
that the motorist was to travel into Ohio. And we are limited 
to the ability to transfer that specific data today on our 
existing network.
    Mr. Latta. OK. Now, does the existing or does the county 
have to have--years ago I was the county commissioner in Ohio 
and we were also responsible for 911 systems and working with 
them.
    Do they have to have the equipment or how--what else does 
an Ohio county have to have?
    Mr. Ritter. So they were able to use their existing 
equipment through their 911 system service provider and the 
connection occurs between our vendor and Indiana and the 
service provider in Ohio.
    Mr. Latta. OK. Thank you.
    If I could ask Mr. Souder a follow-up, when you were 
talking in regards to our more antiquated system that we have 
out there you said if you have a vehicle back from 1968 being 
antique--actually, in Ohio after you hit 25 years you get an 
antique plate.
    But how do we go forward? Because you were mentioning 
especially, again, with if you're out someplace and let's say 
there's an accident, can't you triangulate from a cell phone 
through an enhanced 911 to that spot today under the existing 
system that we have?
    Mr. Souder. The existing system that we have today relative 
to mobile phones, who, by the way, are the source of about 80 
percent of 911 calls received in the United States, in a way it 
was one of the greatest things that ever happened to 911--
wireless phones.
    But it also had its own drawbacks because now instead of 
getting one call reporting a traffic accident on an interstate 
now you get a hundred phone calls reporting a traffic accident 
on an interstate. But in this case, more is better than less.
    But to your point, the cellular tone today integrates very 
well into the legacy network. However, and this is a big 
however, it does not bring with it the absolute location of 
that particular call.
    If you were to call 911 from your home wireline phone, if 
you had one, there's no doubt about it that the 911 call will 
be received with the exact address from which that wireline 
went.
    But in a wireless world that's not the case at all. At a 
previous hearing in this building in this room I tried a 911 
call from within this chamber and it identified me as being on 
Independence Avenue Southeast.
    Not a very good thing if you're having a heart attack, and 
that is one of the big drawbacks that goes with wireless 911 
calls in a legacy network. Wireless 911 calls in a Next 
Generation network will bring to you the absolute location of 
that phone.
    Today, you might not or maybe would be surprised to hear 
that if you were to call a pizza in to Papa John they would 
know where you are. But if you were to call 911 they may not 
know where you are.
    Mr. Latta. OK. Well, it's a very, very important topic and 
when I was a commissioner we worked very closely with our 
sheriffs because our sheriffs were the ones that run the 911 
system in the State of Ohio and, again, as you say, we have an 
interstate highway system that runs through our county and my 
district and so in order to get those calls it's so important 
for our law enforcement and especially our sheriffs because 
they are the ones that are running it. But I really appreciate 
you all being here and your testimony today. Thank you very 
much.
    Mrs. Blackburn. The gentleman yields back.
    Ms. Eshoo, you are recognized for 5 minutes.
    Ms. Eshoo. Thank you, Madam Chairwoman. Thank you to each 
one of the witnesses for the work and the experience of your 
life that you bring to us. It's very rich and it is enriching 
to us in your testimony.
    There are a couple of things that I want to mention that I 
am really very, very proud of. John Shimkus was here earlier 
but has left. At that time it was called the E-9-1-1 Caucus in 
the House and it was also established in the Senate with 
Senator Conrad and Conrad Burns and Senator Clinton at that 
time.
    So we are still the originals around here for that caucus 
and proud of it, and we have been able to bring many of the 
issues that we are talking about today forward.
    I also am proud of the fact that while Congress had dealt 
with the recommendations of the 9/11 commission there was one 
that Congress had not made good on and that was to establish a 
nationwide interoperable public safety network, and I carried 
the legislation successfully and it became law.
    So now here we are. We have got different parts of 
different systems and different technologies and there is 
something unsettling to me about it because it's 2017.
    And I don't think that we have made the headway that we 
should. This is not fault or blame. I would recommend, Madam 
Chair, that at some point we have a hearing where we bring in 
the NTIA and NHTSA and FirstNet because they are the 
implementers of this.
    And I think it needs a revving up. I really do.
    So having said that, we have 6,800 PSAPs in the country, I 
think. I think it is someone's testimony or maybe the committee 
memo.
    Let me ask, Mr. Souder, how would you characterize the 
progress being made over that landscape--the 6,800?
    Mr. Souder. Each state and each community within it has the 
option as to how they will utilize 911, as we have noted in the 
past, and I would suggest to you, looking to the future, that 
control of 911 should still be a local effort, whether it be at 
the county at the local level.
    Ms. Eshoo. Where I come from--I come from county government 
so I am very familiar with the operations locally.
    Mr. Souder. Right, and it is for them to decide whether or 
not they need whatever they have currently, if you will. To 
several of our witnesses that commented that you can continue 
to have your local 911 center staffed by local people. However, 
it can be hosted by technology that is far removed from that.
    So you have the dual benefit, if you will, of local 
engagement but at the same time an economy of scale by nature 
of the way you deploy the hardware.
    Ms. Eshoo. I was going to repeat the story of your making 
the telephone call from the Rayburn Building. And your call was 
answered but you were told by the public safety operator that 
your location could not be determined.
    Now, this is from a traditional landline multi-line 
telephone system. This is not uncommon in our country, and I 
think Congress really needs to push hard on location technology 
because we comfort ourselves that we have an emergency system 
in the country but if the first responders can't find the 
person that's experiencing the emergency, really, what kind of 
a system is that? What kind of a system is that?
    So I think we need to ride hard on that. Mr. Souder, what 
would you recommend to us to do about fee diversion?
    Mr. Souder. The issue of fee diversion is monitored closely 
by the Federal Communications Commission, again, because 911 is 
funded locally. It is the decision of local policy makers as to 
what to do with that money.
    I would only imagine that various statutes that give rise 
to the figure of the tax or the surcharge can be interpreted 
one way or another at a local level as to whether or not they 
really have to divert all of that money into 911 or maybe they 
can redivert it into something else.
    Clearly, for those states that have that interpreted 
flexibility I would ask that they go back and they look at that 
with a close eye. We all know the economy that we work in. We 
all know how tight funds are. But it's very, very important 
that as a taxpayer if you are paying tax for a particular 
service that that's in fact where that tax goes.
    Ms. Eshoo. Well, what would you do, though? You explained 
how it's working.
    Mr. Souder. Well----
    Mrs. Blackburn. Gentlelady's time has expired.
    Mr. Souder. I don't know what I would do but I could make a 
couple of suggestions, that to the degree that the Congress in 
its wisdom sees fit to establish perhaps a Next Generation 
grant program that there could be embedded in that grant 
program criteria that would say that if you are eligible for 
the grant there are certain things that you have to comply with 
or cease to do and if there was current fee diversion going on 
you're not eligible for a grant until that is addressed.
    Ms. Eshoo. Thank you very much.
    Mrs. Blackburn. Mr. Guthrie, 5 minutes.
    Mr. Guthrie. Thank you. Thank you, Madam Chairman.
    Dr. Magnussen, are you familiar with the FCC's 2013 report 
to Congress regarding Next-Gen 911? I am sure it was a best 
seller--widely read.
    Mr. Magnussen. Yes, sir. I am.
    Mr. Guthrie. OK. And so according to that report, some of 
the participants called for the federal government to establish 
certain databases to support Next-Gen 911. Could you briefly 
describe those databases and the function they provide?
    Mr. Magnussen. OK. Thank you. I appreciate it.
    One of them actually is what we refer to in the industry as 
a forest guide. The forest guide gets to the point that I was 
talking about having a national level database that understands 
the interconnection points between the states.
    Again, it is really important that within the states they 
manage their call routing and everything else. But what is 
often the case today is if, for example, you have a visitor 
here in Washington, D.C. but their home service is back in 
Texas and when that happens actually that call is routed back 
to Texas and the Texas service has to understand where that 
person is.
    So, again, we use the system called the forest guide where 
at the local level they try to determine the PSAP to route it 
to. If it can't determine at the local level, it goes to a 
higher level.
    And that higher level then would take it to Washington, 
D.C. and say, where is Walt right now, and the call would be 
routed appropriately.
    The database that understands the relationships between the 
states and is able to handle the call processing between the 
states is what we call the forest guide and that is something 
that currently doesn't exist and, unfortunately, one of the 
larger issues is it really doesn't have a home today.
    In other words, is it a responsibility of the U.S. 
Department of Transportation through NHTSA? Is it OEC? That 
hasn't been determined.
    Mr. Guthrie. Good. I know that a lot of these reports do 
get produced and it's good to have people read them, understand 
them and can give expert testimony. So we appreciate the value 
of that.
    Mr. Ritter, you mentioned FirstNet. FirstNet is an IP 
network and we were talking about IP networks when we talk 
about Next-Gen 911.
    Do you have any thoughts on how these networks should be 
integrated and do they have to be integrated?
    Mr. Ritter. From Indiana's perspective, I would envision 
the integration being at the PSAP level--that our current Next-
Gen network would operate independent from a FirstNet broadband 
and the integration is through the workflow in the PSAP to the 
first responder.
    Mr. Guthrie. To the PSAP? So what is that? Could you 
explain that a little bit?
    Mr. Ritter. The 911 center.
    Mr. Guthrie. OK. The 911 center. OK. Thank you very much.
    And Ms. Boyd, and when you get a question prepared--Mr. 
Souder almost talked about this but I'd like for you to talk 
about it as well--you said you agree with Mr. Ritter. You seem 
to agree with Mr. Ritter that a greater federal role is needed.
    It seems to me your focus is on the funding side of it and 
Mr. Ritter has testified that funding alone is not the answer. 
And my question is you agree with that and you state that 
you're a strong supporter of local government control but call 
for more federal involvement.
    And just is funding alone is not the answer and do you 
agree? And the second one is how do you reconcile a greater 
federal role but keep it local? And then Mr. Souder kind of 
talked about that a minute ago but just to reemphasize.
    Ms. Boyd. Mr. Guthrie, our company and the members of ICERT 
are very large supporters of local control. But what we are 
void of right now is a policy authority that would set a date 
and a time to actually put our country in the Next-Gen 911 
technology.
    If you look historically for any deployment of technology, 
whether it was the TTY deployments with the Americans with 
Disabilities Act, whether it was wireless, whether it was 
void--even our state planning, I think Barry would agree.
    We had dates that we had to meet. So Congress could be the 
policy authority that helps with the initial grant funding and 
also sets the expectation as a policy body that we have to 
achieve these deployments. So it's multi-faceted and do that 
also on a regional and statewide coordinated basis so we can 
get the economies of scale and that also works parallel with 
FirstNet.
    Mr. Guthrie. I understand the local and the coordinating 
because as Dr. Magnussen said, if I called 911 now it would go 
through and--I don't know.
    Somehow it would think I am in Kentucky. That's my local 
exchange, and you have to have all these systems work together. 
We appreciate this. It's been very informative to me, someone 
who's certainly not a expert in this at all.
    But it's very informative and I appreciate your testimony. 
I yield back 5 seconds.
    Ms. Boyd. Thank you, sir.
    Mrs. Blackburn. Mr. Pallone, you're recognized for 5 
minutes.
    Mr. Pallone. Thank you, Madam Chairman.
    I understand that FirstNet is on the verge of an historic 
announcement of a private partner, and despite a lot of 
doubters along the way this announcement is the culmination of 
years of work and will begin the next phase of deployment.
    Getting us this far toward a nationwide interoperable 
public safety network was a signature accomplishment of the 
Obama administration.
    So, Ms. Boyd, I wanted to ask you how important is the 
successful implementation of FirstNet to the transition to 
NG911?
    Ms. Boyd. Mr. Pallone, in my opinion, coming both from 
government and 911 background as well as from the industry 
perspective, they are very important and they should be 
partnered.
    When our citizens call 911, that's coming in from a voice 
or could be a text connection. But without integrating into 
FirstNet, which is the radio network, our first responders will 
not have all that wonderful data that we are able to transmit 
through smart devices.
    So they need to be planned and integrated together. One 
without the other will basically be somewhat ineffective in 
terms of maximizing the efficiencies of those technologies. 
Does that make sense?
    So as Barry had indicated, at the 911 center when you have 
voice and data coming in it's the radio network that's actually 
getting the information out to the first responders. So through 
911 that data would be handed off and integrated into the radio 
communications network.
    Mr. Pallone. Thank you.
    Ms. Boyd. Thank you, sir.
    Mr. Pallone. We have also noted how states put a fee on 
their citizens' phone bill that says it is for 911 but too many 
states, including my own, then use that money for different 
purposes and I think that's deceptive and dangerous.
    So, Mr. Souder, can you please tell us why diverting 911 
fees is so harmful to the lifesaving transition to Next 
Generation systems?
    Mr. Souder. Anytime a 911 system is dependent upon tax 
dollars they are dependent upon all of the tax dollars that 
were intended to be received.
    When you divert funds from that revenue stream, you 
obviously are going to have an impact in one way or another in 
the operation of that 911 center whether it's technology, 
whether it's administration, whether it's personnel or what it 
may be.
    So to pinch that revenue stream and reduce it by varying 
degrees has a definite correlation to the efficiency of the 911 
center and the level of service that they can provide to the 
very citizen that paid that tax, expecting that all of it would 
go to the center.
    Mr. Pallone. All right. Thanks.
    I wanted to ask you another question. In your testimony you 
indicate that ignoring Next Generation 911 is ``Not an option'' 
and I agree. I also understand that money alone will not solve 
the problem.
    But I think adequate funding is the foundation for any 
serious conversation about upgrading our systems and that's why 
I think passing a national infrastructure bill presents us with 
a unique opportunity get this done the right way.
    So, Mr. Souder, you mentioned in your testimony ways to 
fund the transition by using an NG operational paradigm model. 
Can you explain to us what that means?
    Mr. Souder. Yes, I would be happy to.
    Generally speaking, Next Generation 911 is viewed as a 
technology initiative. But the reality is that it is, in my 
opinion, a three-pronged initiative.
    One, technology for sure, and that has consumed most of 
what we've talked about today. But the other two parts of that 
are the governance of that and the funding of that. We've 
talked a little bit about the funding but very little about the 
governance.
    So I think it's very important because Next-Gen 911 is 
administered locally and should be--you have heard that said 
many times--that we use this opportunity to take a fresh look 
at the way in which we both fund, the way in which we govern 
and the way in which we deploy technology so that the three are 
working in harmony with each other for the collective benefit 
that they will bring.
    Mr. Pallone. All right. Thank you. I want to get one more 
question in to Mr. Forgety. Senate Democrats recently unveiled 
a bill that could help finally deliver on the promise of Next 
Generation 911.
    Well, tell me what you think about that bill, if you could.
    Mr. Forgety. Congressman, I think there's a lot to like in 
the discussion draft that was circulated in the Senate. You 
know, we certainly came out strongly supporting that language. 
I think there are other things, certainly, that we'd like to 
see, you know, in a bill like that as well and we are certainly 
willing to work with the committee on that.
    One of the things that Chairwoman Blackburn mentioned 
earlier was the success of states that have 911 boards, and I 
think coming from a Tennessean that speaks particularly 
powerfully to me because in my home State in Tennessee our 
former 911 director, Lynn Questel, wherever she went she would 
tell people, if you want 911 to be successful get people from 
the legislature, from the regulators, from the industry, from 
public safety professionals, get them together and work on it 
collectively and you'll be much more successful. So those are 
the kinds of things we think can make the bill even stronger.
    Mr. Pallone. Thank you, and thank you, Madam Chairwoman.
    Mrs. Blackburn. The gentleman yields back and Mr. Shimkus, 
you are recognized.
    Mr. Shimkus. Thank you, Madam Chairman. It's great to have 
you all here.
    Mr. Forgety, I want to just follow up on Ranking Member 
Pallone's question because I don't know the answer on this.
    But the question is premised on that some states' 
regulations are based upon legacy technologies. Does the Senate 
bill address this issue or how do you think that challenge can 
be addressed?
    Mr. Forgety. The FCC report required by the Middle Class 
Rax Relief and Job Creation Act of 2012, something that report 
addressed based on our comments, actually.
    In your home state, the counties of southern Illinois--I 
think it is a 17-county region--they got together and said we 
want to put together a Next Generation 911 networking system. 
We want to go out and be first on this issue.
    They ran into a regulatory morass. They spent years trying 
to figure out how can we do this as counties--how can we go out 
and build this thing collectively, because they didn't fit 
neatly into the right boxes.
    They weren't a telecom. They weren't a phone company and 
historically the rules were written so that you had to be a 
phone company to do some of these things.
    So I think one of the things that we talked about in our 
comments to the FCC was that we may need some kind of backstop 
in federal regulations that say look, this is new technology 
and the old regulations, if they are not done away with at some 
point, we've just got to say look, you can petition the FCC or 
you can just go and build. But you've got to be able to deploy 
these new technologies without these legacy barriers.
    Mr. Shimkus. Thank you very much, and I don't want to beat 
up on my own state but this does give me the platform to do 
that every now and then and I don't think that's bad policy 
sometimes.
    We are one of the diverting states now. We didn't used to 
be. We held firm. But we are such a dysfunctional state, 
budgetary wise.
    So I think the report says about 5.2 percent transferred to 
the general fund. So I am just calling my state out on that.
    Mr. Ritter, though, in your testimony, because you're my 
neighbor, you mentioned Michigan, Ohio and Kentucky. But, 
obviously, you left out interoperability across the state lines 
in Illinois.
    In fact, I pulled out your Exhibit A and drew this big 
circle and that's my district--it abuts all of southwestern 
Indiana. Do you want to comment on that? Why are you not 
helping Illinois out, I guess, is----
    Mr. Ritter. It's not personal, sir. Much to Trey's comment, 
when we began to look at Illinois to partner with--as we had 
the other states, we hit regulatory issues and there were 
limitations that inhibited our ability to build our network on 
our dime into your state to provide those critical services.
    Mr. Shimkus. I guess that's it. Thank you.
    And let me finish up with Dr. Magnussen. If the federal 
government were going to be involved even--there is that 
debate, right? We've done FirstNet. There is a pot of money. I 
think their question is, is there going to be another pot of 
money?
    Do you have any idea, a ballpark soup to nuts, of how much 
to get us to where a lot of people in this sector would like us 
to be, what that would be?
    Mr. Magnussen. The center that I direct has been working 
for several recent months on an interim study.
    The interim study basically is what I am going to call a 
back of the napkin type study because of the fact that the 
challenge we are running into is when you start to look at what 
it's going to cost you really need solid data and, again, so 
few states have really done this and there is so much variance 
in what it would cost from state to state. Coming up with an 
accurate number is very difficult.
    I would anticipate that probably within about the next 
three or four weeks our interim study will be ready. Now, the 
interim study is only that.
    In essence, right now there is a study being done by the 
NG911 office that will be out later on this fall and that will 
be the authoritative study.
    That one actually has been funded and will in essence 
really give a much, much better determination of what those 
total costs are.
    I have worked with the people that are doing it. They've 
got some really, really very good people working on it. They do 
have the same challenge we did, though, and that's when you do 
a study and you don't have a whole lot of solid data to base it 
on it's hard.
    Mr. Shimkus. I appreciate it.
    Madam Chair, I yield back my time.
    Mrs. Blackburn. Ms. Clarke, you're recognized for 5 
minutes.
    Ms. Clarke. Thank you, Madam Chair and Ranking Member. I 
thank our expert witnesses for lending your expertise to this 
very important issue for our nation.
    This question is for Mr. Magnussen. The 911 call centers by 
design are an interconnect point for the public to first 
responders. As such, they could be an attractive target for 
possible cyberattacks that can have serious repercussions to 
the public.
    We have already seen current analog systems compromised by 
simple cyberattacks such as telephoning denial of service and 
radio frequency jamming. Next-Gen 911 will not be immune to 
attacks. We must plan for a strong cyberdefense sooner than 
later.
    And clearly assuring that Next-Gen 911 systems is secure 
will save lives. During your testimony this morning, you made a 
number of references in this regard.
    Have these issues been taken into account when planning 
Next Generation 911 systems and is there a need for additional 
funding necessary to ensure security is baked into the Next 
Generation 911 systems?
    Mr. Magnussen. Thank you for the question.
    If you look at the architecture that NG911 is based upon, 
one of the devices you have at the edge of the network is 
called a BCF. It stands for border control function, and in lay 
person's terms that's basically a firewall on steroids.
    So yes, it is designed into the architecture. Yes, it will 
be built in and a BCF is pretty much a required function of 
every one of ESInets.
    The centralized monitoring facility though that I talked 
about a little bit earlier is really kind of a key function 
behind that. It's in essence a second layer up, because there 
will be a large number of ESInets. Each one of those ESInets 
will have one of these border functions.
    Unfortunately, hackers are very smart and they seem to have 
a lot of time on their hands. So what in essence the problem is 
is an attack on one hardened area could easily be moved to 
another area.
    So the function of the central monitoring facilities would 
have a global view and as an attack occurs in essence that 
attack would be understood what's going on to help shut things 
down but, more importantly, also to make sure that that same 
attack is not invoked on the neighboring PSAP.
    Ms. Clarke. And so the concern then becomes information 
sharing, right? So we witnessed an attack in one part of the 
system that there is a mechanism in place so that that 
information is shared in real time. Is that also part of what 
you envision or part of what is being discussed and planned?
    Mr. Magnussen. Exactly, because, again, attacks typically 
are almost like a virus. They keep changing themselves to do 
what they were intended to do, which is damage, and in essence 
you have to stay--it has to be a real time active process.
    Ms. Clarke. Did anyone else want to add any comments to 
that? Mr. Forgety.
    Mr. Forgety. So I appreciate your asking about 
cybersecurity because this is something our organization has 
been focused on for about the last 2 years very intensely.
    Even before that, our standards developers created 
something called the NG-SEC, or Next Generation 911 security 
standard.
    It goes far beyond just firewalls and border control 
functions, establishes defense in depth. This is a key point. 
Today's telephone network systems are vulnerable to attack. For 
a long time we thought they weren't and we acted like they 
weren't in the PSAP community and we didn't defend them.
    The challenge is we don't have tools to defend them in the 
telephone network. People have said well, won't the move to IP 
introduce new vulnerabilities, new attack surfaces, and so 
forth and the answer to that is yes, of course it will.
    But the other thing that it does, the most important thing, 
is it gives us tools to fight back. It gives us tools to defend 
our networks that in the telephone world we simply don't have 
and that's another reason it's so important that we move to 
Next Generation 911 soon.
    Ms. Clarke. Very well. This question is for Ms. Boyd. In 
your testimony you discussed the need for Congress to take a 
bipartisan approach to develop legislation to make Next 
Generation 911 a national priority.
    Can you please elaborate on what this legislation should 
look like and how Congress can take the appropriate steps?
    Ms. Boyd. Yes, ma'am. Thank you for the question.
    If I were going to frame the policy I would establish, one, 
the grant system that allows for the upfront non-recurring 
capital investment for the areas.
    I would also consider that in that you establish planning 
time frames and deployment time frames working with the states. 
It's always partnered with the states and local government.
    But I would also encourage Congress not to just focus 
funding the initial up front for areas that haven't deployed. I 
think it's only fair that you also look to perhaps Mr. Ritter 
in Indiana.
    He may have elements that are still needed within his Next 
Generation 911 infrastructure that he could use funding and 
grant assistance for.
    So the policy framework really would be enabling grant 
distribution, setting a time frame for deployment and the 
expectation that our country is going to be NG911.
    Ms. Clarke. Thank you very much. I yield back.
    Thank you, Madam Chair.
    Mrs. Blackburn. The gentlelady yields back.
    Mr. Bilirakis, you are recognized for 5 minutes.
    Mr. Bilirakis. Thank you, Madam Chair. I appreciate it. I 
want to thank the panel for being here as well today.
    I am the former chairman, as is Ms. Brooks as well, of the 
Subcommittee on Emergency Preparedness Response and 
Communications under the Homeland Security Committee. So we 
really are interested in this subject.
    Mr. Forgety, can you briefly explain the particular 
benefits of the Next Generation 911 for the blind, deaf, 
visually impaired, hearing impaired that are not currently 
available through the analog 911 services?
    Mr. Forgety. That's an incredibly important question, Mr. 
Bilirakis, and I really appreciate your bringing it up.
    In the United States today there are more than 38 million, 
I believe, deaf, hard of hearing or speech-impaired 
individuals.
    Historically, their access to emergency communications was 
greatly restricted by limitations of networks and systems. It 
was only after the federal government mandated that TTY 
technology, the ability to type characters over the telephone 
line using analog tones--only after that was required that that 
service became available over 911.
    The great thing is if you look at the work that our 
standards developers did with NG911, they baked those 
functionalities in deeply into NG911, support not only for 
message-based texts but for real time texts character by 
character that has the same conversational flow as a TTY, the 
ability to do multi-party video calling so you can have a sign 
language interpreter available so that you can do things like 
interact with someone who is blind and sort of be their eyes 
for them if need be.
    All of those things are natively supported in NG911 and 
from the standpoint of the PSAP community it makes it far 
easier for our members to provide service to these more 
vulnerable aspects of our population in the ways that they 
communicate already and that's the key thing is we want to make 
911 service available to people in the way that they're used to 
communicating.
    It shouldn't be some rare oddball thing. It should just 
happen the way you do it every day and that's very important to 
us.
    Mr. Bilirakis. Very good. My district represents a 
significantly large population--in the Tampa Bay area--of 
seniors, as compared to most congressional districts.
    What benefits do the Next Generation 911 provide for our 
nation's seniors who are most likely to request emergency call 
centers and need emergency services?
    Mr. Forgety. So I will point to two things in particular. 
Contrary to some media characterizations, senior Americans are 
some of the fastest technology adopters.
    They actually end up using video calling and text messaging 
just as quickly as the average teenagers do and love the 
technology.
    I mean, you know, video calling with your grandmother is 
now, you know, a common everyday thing. So these technologies 
will benefit seniors.
    The other thing that was mentioned before is the internet 
of things. We are seeing a phenomenal growth in new wearable 
technologies that principally focus on health and security. I 
mean, these are things that Americans care about and that our 
innovators are building products for.
    As that happens, as more of those things come online and as 
we get used to them in the 911 community, I think there is 
going to come a point where because the standards allow for it 
we are going to start to see alerts coming in from those things 
so that we can respond and so that we can know, for example--
and this is a big NG911 feature--if a consumer wants to make 
health data available when they call 911, something like hey, I 
am a diabetic, hey, I am a hemophiliac, I have a heart 
condition, whatever that is, they can do that securely through 
a trusted third party.
    They don't have to share their data with the government up 
front and that makes it much easier for responders in the field 
to provide good service.
    Mr. Bilirakis. Very good. Anyone else want to respond to 
this subject matter, whether it's disabled in general, senior 
population, what have you? Anyone else want to----
    Ms. Boyd. Could I just----
    Mr. Bilirakis. Yes. Please go ahead. Yes.
    Ms. Boyd. I think another benefit as we do have an aging 
population and want to live at home, right, added to the 
medical information that they can personalize and send to 911 
and the first responders is also the ability to notify a third 
party if they wanted to.
    So you say, my parents, if they were living, they dial 911, 
I could know they had called and they could set that up in pre-
plan.
    So, once again, the Next Generation technology affords so 
much added benefit and data.
    Mr. Bilirakis. Is that technology available currently?
    Ms. Boyd. Yes, sir. It is.
    Mr. Bilirakis. Oh, great. Sorry to interrupt.
    Ms. Boyd. No, no, no. That's fine.
    Mr. Bilirakis. Keep going.
    Ms. Boyd. So as Trey had indicated, it's the ability if you 
choose to share the information with first responders we can 
arm them as they're en route to know that I have medical 
emergencies or that I have a third party to be notified and 
that would help them as they are also trying to find loved ones 
and notify them. Thank you.
     Mr. Bilirakis. Absolutely. Anyone else?
    Yes, please.
    Mr. Souder. I did. Thank you. Health care is changing in 
the United States of America, legislation aside. There are 
technologies presently available and on the horizon that will 
allow and mandate that health care of the future is as 
different in the future as 911 will be different in the future.
    It is incredibly important that as that technology 
advances, for all segments of our population that they can take 
full advantage of that technology when they need to call 911.
    Whether it's body-worn technology, whether it's pre-entered 
profile technology, whether it's medication technology, 
whatever it may be but the next generation of 911 when deployed 
will be able to communicate that both to the first responders 
that we spoke about earlier through the FirstNet network but 
also to the hospital staff so that when a patient arrives at 
the hospital there are many things about that patient that will 
already be known by the attending people in the ER. Very, very 
important.
    Mr. Bilirakis. Very good. Thank you very much.
    I yield back, Madam Chairman.
    Mrs. Blackburn. Gentleman's time has expired.
     Mr. Long for 5 minutes.
    Mr. Long. Thank you, Madam Chairwoman.
    Ms. Boyd, your testimony mentions the benefits of Next 
Generation 911 including providing increased reliability and 
resilience of the network, particularly in times of emergency 
and high use, and I know that in my district that when we had a 
tornado that killed 161 people in a town of 50,000, right.
    After I had been here for 5 months I know how important the 
911 is and you explained how Next Generation 911 could provide 
such increased reliability and resilience.
    Ms. Boyd. Yes, sir. In an IP advanced architecture 
different than what we have today with the legacy analog, 
today's networks are very tethered. That's the best way to 
explain them. They are fixed. They are not dynamic and they 
don't move.
    So in a Next-Gen world, in an IP world, we regionally plan 
or statewide plan in Missouri for Next-Gen. If you have another 
unfortunate event, as the tornado, that impacted PSAP, one, has 
its neighboring communities that can help back it up both from 
call volume or if you had to abandon that PSAP, that 911 
center.
    They can already have pre-planned backup from your 
neighboring counties. You have redundancies in these IP 
networks that do make them more resilient but at the same time 
they also add that flexibility.
    Mr. Long. OK. Thank you.
    And also another question for you.
    Ms. Boyd. Yes, sir.
    Mr. Long. Your testimony mentions the dangers of 
technological obsolescence of the current 911 network, which 
often rely on 1970s technology and, yes, I remember the '70s.
    You mentioned that--you mentioned that these data 
technologies pose significant public safety risks due to higher 
maintenance costs, system malfunctions and outages and 
increased cybersecurity vulnerability.
    Focussing on the cybersecurity, can you explain how Next 
Generation 911 technology is less vulnerable to cybersecurity 
attacks than the legacy 911 network?
    Ms. Boyd. Yes, sir.
    In a Next Generation environment, it's also vulnerable but 
the difference is, once again, the intelligence. It's either 
putting cybersecurity detection devices at the edge of those 
new IP networks or it's also with the work Steve Souder and I 
did with the FCC TFOPA work we actually have a full report that 
we published this past December that speaks to cybersecurity 
for public safety and the risk and we make a recommendation to 
introduce an added element not only just for 911 purposes but 
also for general public safety systems where they can have the 
added protection, detection, aversion, and also the 
notification feature.
    Oftentimes, I think, as Mr. Forgety mentioned, our public 
safety agencies don't know they're even in an attack today. 
Those companies that do networks for 911 we have cyber elements 
and we monitor and detect that they can actually infiltrate the 
PSAPs themselves. And so in an IP world we can actually 
strengthen that ability to hopefully divert those attacks on 
the systems.
    Mr. Long. OK. Thank you.
    And Mr. Forgety, my next question is for you. The Middle 
Class Tax Relief and Job Creation Act required a report on the 
legal and regulatory framework surrounding Next Generation 911.
    Do you agree with that report's recommendations?
    Mr. Forgety. And that's been some time ago so I can't 
recall all of the recommendations yet.
    Mr. Long. Four years, I think.
    Mr. Forgety. But I do recall that quite a few of the 
recommendations actually in that report followed comments that 
we had provided to the FCC and we certainly support everything 
that we said then just as much as we did then. It's all very 
important.
    We need comprehensive liability protection for not just 
network providers but also originating service providers. That 
was something we mentioned in there.
    If you want folks like Apple and Google and Facebook to get 
in and 911-enable their services, they've got to have the same 
assurances and, frankly, at a national level that telecom 
carriers and the wireline and wireless world get at a state 
level. That's very important.
    As Walt mentioned earlier, you've got to have things like a 
national forest guide, an ability to credential PSAPs with a 
cryptographic certificate authority.
    There are things like that that the FCC took our 
recommendations on, reported those to Congress. We agree with 
all of that.
    Mr. Long. Do you think the 911 coordination office needs to 
submit the cost study required by the Middle Class Tax Relief 
and Jobs Creation Act in order for Congress to adequately 
evaluate the needs to be done to complete the transition to 
Next Generation 911?
    Mr. Forgety. That's a hard question, Congressman.
    I always think it's better to have a report in hand when 
you're going to do something. However, the clock is ticking.
    Every day, every week, every month that we wait to get this 
process started the costs for local and state governments are 
going up and the outcomes for consumers and field responders 
are going down.
    That is an untenable state of affairs and it's one that we 
need to fix. So while I always want that if I can get it, I am 
not willing to say we should just wait continuously.
    Mr. Long. OK. Thank you.
    Before I yield back, Madam Chairwoman, I have a couple of 
articles I'd like to submit for the record--update to 911 
issues in Dallas and mobile not at fault for ghost 911 calls.
    Mrs. Blackburn. So ordered.
    [The information appears at the conclusion of the hearing.]
    Mrs. Blackburn. The gentleman yields back.
    Ms. Brooks, the leader of our NG911 efforts, you are 
recognized for 5 minutes.
    Ms. Brooks. And thank you, Madam Chair, and as we have 
heard from my colleague from Florida, Mr. Bilirakis, we have 
been involved in, as chairs of subcommittees in Homeland 
Security on emergency preparedness response and communications.
    So we have both been involved as have a number of folks on 
the subcommittee and these issues because it's so very 
critically important and I look forward to working with each of 
you in the future as we continue to explore these issues. I 
want to thank all of you for coming in.
    I want to, of course, ask Mr. Ritter and I want to applaud 
your leadership in Indiana, and we have prioritized emergency 
communications in a big way in our state whether it's from not 
diverting funds out of our trust fund, which I realize now is a 
much bigger deal than maybe I fully appreciated, having a 
statewide 911 board that's overseeing rapid deployment.
    But you also mentioned public-private partnerships and you 
were the only one that mentioned public-private partnerships.
    You described that as our approach in Indiana do you 
believe that we've saved money by pursuing Next-Gen 911 in this 
deployment model and whether--what other advantages do you 
believe it brings? And then I would be curious in hearing from 
other experts here what their thoughts are on the public-
private partnership model. Mr. Ritter.
    Mr. Ritter. Yes, thank you.
    You know, when I came to this job seven years ago I was a 
staff of one, and the--to the wisdom of the general assembly 
when they created the wireless board they chose to pursue a 
version then of the public-private partnership.
    My colleagues around the country, there were varying models 
of state-run networks operated within state agencies. However, 
we chose, in Indiana, to maintain the course in this public-
private partnership and that we did not have the infrastructure 
build in our own state for a public safety grade network to 
move 911 to.
    We knew that that would be cost prohibitive to start a new 
initiative to build and therefore we chose to leverage the 
economy of scale, the expertise and technology, if you will, 
from the private sector to provide to us a design as to what 
they could build and provide to meet the needs of our citizens 
in the state.
     Ms. Brooks. How many partners would you say you have in 
the system?
    Mr. Ritter. The two primary vendors that will be providing 
networks are at the top of that list. However, their 
requirements to connect with other systems service providers in 
the state add to that count as well as the vendors who operate 
the equipment inside of the PSAPs.
    So as we build this network the list of those partners 
continues to grow.
    Ms. Brooks. And have you discussed this model, and I am 
curious from your other colleagues across the country--is this 
a model? Have we saved money in part because of this? Found 
efficiencies and relied, I would guess, on the expertise from 
the private sector?
    Mr. Ritter. I'd like to say that yes, we have saved money. 
When the general assembly asked me how much it was going to 
cost to build these networks in Indiana my answer was, I have 
no idea--trust me.
    And it came out at the end of the day that we estimate that 
it will cost us, from the state's perspective for the networks 
right in the area of $15 million.
    Now, this process required one of the vendors to build a 
network in the state and to participate. Their cost to build 
that network is not a number that they have shared. But I am 
sure that it was quite extensive from a private investment for 
that company to build and the state's going to reap the cost 
savings of that.
    Ms. Brooks. Would anyone else like to comment on whether or 
not states and other areas have contemplated this? Mr. Souder.
    Mr. Souder. Thank you for that very insightful question.
    As I attended the FirstNet board meeting yesterday at which 
they announced approval to go ahead with the contract with a 
private-public partnership, it really struck me as being an 
excellent way in which the deployment of Next Generation 911 
could be looked at as well.
    We are going to need a new network. In our world, we call 
it an ESInet--an emergency services integrated internet 
network.
    The ESInet will not be telephone poles and wires between 
them nor manholes in the street. It will be in the cloud, if 
you will.
    There is no need at all for any 911 center to build its own 
ESInet. There are ways in which they can avail themselves of 
the private sector to deploy that ESInet.
    So I think that there are a lot of opportunities that exist 
as we look to deployment as to how we do that, and I go back 
again in the most cost effective way possible.
    Ms. Brooks. Thank you, and thank you all for your 
expertise.
    Mr. Magnussen. And if I could add to that too, the State of 
Texas is doing the same type of thing in that we have selected 
vendors to work with us and partner in that.
    Rarely is it ever going to be a state employee that's 
actually going to be running the switches and managing it. 
There will be a vendor or service provider backing us.
    Ms. Brooks. Thank you all. I yield back.
    Mrs. Blackburn. The gentlelady yields back.
    Mr. Kinzinger for 5 minutes.
    Mr. Kinzinger. Thank you, Madam Chair, and thank you all 
for being here with us today. We really appreciate it.
    Mr. Souder, as you said earlier, one of the most important 
components of a successful response to a 911 call is knowing 
the location of the emergency.
    Responders need to know, for instance, that we are in this 
room if it's called. You made that clear last time. Do you 
agree that a quicker response times are a benefit of Next-Gen 
911 and can you describe how Next-Gen 911 can help with 
location, accuracy and mapping for first responders?
    Mr. Souder. Thank you, and unquestionably.
    There are appropriate standards within the 911 world as to 
how quickly a 911 call is answered and once answered how 
quickly a unit that needs to be dispatched is dispatched.
    In an ideal world, if the information that was provided 
initially through networks provided the exact location of the 
caller it would save a huge amount of time. The reality is that 
on a typical 911 call in my former position took about 40 
seconds of a one-minute time frame in which to get the dispatch 
achieved, 40 seconds to ensure that you had the right address.
    That doesn't leave a whole lot of time for triaging the 
call taker about the emergency being reported. So yes, in the 
Next Generation world there will be a very, very large decrease 
in the amount of time to verify and confirm the address from 
which the call was coming and consequently how quickly units 
can be dispatched to that call.
    Mr. Kinzinger. And you also indicated that the cost of 
Next-Gen 911 depends on each deployment, and I read that 
statement to imply that some states might wind up with 
deployments that are better than others.
    Given the network architecture underlying Next-Gen 911, 
would that undermine the deployment of Next-Gen 911 nationally?
    Mr. Souder. I do not believe so. I think that all of us at 
this table have said repeatedly that 911 should be a local 
issue, whether local at the state, county, or local level.
    But it's very important that these principal fundamental 
guidelines that are already established through the task force 
on PSAP architecture are followed because they are designed in 
a way to give options and alternatives to the way in which Next 
Generation 911 is deployed, allowing for differences that exist 
in different communities.
    Mr. Kinzinger. Mr. Magnussen, do you have any thoughts on 
that?
    Mr. Magnussen. Yes, I do. The location accuracy isn't 
necessarily a complete 911 issue. The problem is that our 
location information depends heavily today upon network 
equipment and satellite location and, unfortunately, in-
building location is a real problem.
    There are efforts going on right now within NIST and within 
the FCC and a number of organizations to try to figure out a 
better technological way of increasing or improving in-building 
location accuracy without breaking the bank because, 
unfortunately, a lot of the solutions that are out there today 
would be exorbitantly expensive and would not be able to be--
would not be implemented.
    So while this is somewhat a policy and a funding issue, 
there are also some very significant technical hurdles and, 
quite frankly, if we could find a perfect in-building location 
solution that was somewhere between next to nothing and free, 
we would have done it. But I don't think that solution exists.
    Mr. Kinzinger. Keep searching.
    Mr. Forgety, we have heard that a central authority of some 
type at the state level is critical to accomplishing the 
transition in an efficient and timely manner.
    Ms. Boyd suggested in her testimony that the local 
government should be in control. This dichotomy reminds me of 
some of the discussions around FirstNet.
    What are your observations regarding this? And from what I 
had gathered anecdotally, the single point of contact model at 
FirstNet seems to be working pretty efficiently.
    Mr. Forgety. So having known Mary for a long time, I think 
I would say that there is no air between us on this issue. We 
agree that local control is very important. State coordination 
is equally important.
    I am a member of FirstNet's PSAP and I can tell you from 
first-hand experience that the single point of contact model 
has worked extraordinarily well.
    It has been a feature of FirstNet's design that allowed 
states to move forward with this process in a coordinated 
fashion.
    I think you have heard everyone sitting here today say that 
doing things in a shared hosted coordinated environment is far 
better for us than trying to go out and build 6,800 unique 
snowflake systems. That just isn't going to work. That's not 
the modern way.
    So we absolutely at NENA believe, and I don't think we'll 
get too much disagreement from anybody else here, that that 
model is quite effective.
    Mr. Kinzinger. OK. Well, thank you.
    Madam Chair, I yield back.
    Mrs. Blackburn. Gentleman yields back.
    Mr. Johnson, 5 minutes.
    Mr. Johnson. Thank you, Madam Chair.
    Dr. Magnussen, we have been talking about the transition to 
Next-Gen 911 and I want to dig in a little bit more into the 
transition and how that occurs.
    I assume there isn't a flash cut. Could you explain what 
the transition means in terms of the legacy networks that we 
are now leaving and how that factors into the costs of the 
transition in the short and the long term?
    Mr. Magnussen. Yes. Thank you for the question.
    And the transition within a local entity really has got 
four major steps that we had identified in the study that we 
did in 2014, again.
    First one is really setting up the organizational 
structure, making sure that somebody has responsibility for 
seeing it from beginning to end.
    Second one is transitioning existing databases to NG 
databases because they are fundamentally different and in 
essence the format, and it sounds simple but there's 
complications in the way we currently read names and streets 
and things like that.
    And the third one is really to go ahead and actually create 
the state or local ESInets, and then the fourth one is to 
convert the local call centers.
    As you said, that's not going to be a flash cut. We are not 
going to suddenly wake up next Friday morning and say the state 
of Texas has transitioned over.
    During that transition period one of the really 
complicating issues is the fact that we have to have these 
things called legacy gateways. So if a call originates in this 
call center and it's NG but it needs to be transferred to this 
call center and it's legacy, how do I do that transition?
    That's where a lot of the cost complications are going to 
come in but it's almost like you're translating two different 
languages and you got to make sure that you don't really screw 
up the translation because that, again, is where you start 
running into problems. So----
    Mr. Johnson. Yes. I am just curious. Do we have companies 
that are building a bridge? I am a software engineer by trade 
and so when we implement large software systems we sometimes 
have to have legacy interfaces from legacy systems to the new 
systems during the transition period. So do we have 
capabilities built in now to bridge the current 911 systems to 
the Next-Gen systems so that you can make that crossover 
transition?
    Mr. Magnussen. Yes, sir. Not only do we have companies that 
are building them but they're also defined into the 
architecture.
    One of them is called an LNG, a legacy network gateway. The 
other one is an LSRG, a legacy selective router gateway. So one 
is NG to legacy. The other one is legacy to NG.
    So both of those architectures--both of those transitions 
are defined and they--there are several companies that are 
building them.
    Mr. Johnson. OK. Great.
    Ms. Boyd, your testimony mentions the dangers of 
technological obsolescence of the current 911 network, which 
often relies on 1970s technologies.
    You mentioned that these dated technologies pose 
significant public safety risk due to higher maintenance costs, 
system malfunctions, outages and increased cybersecurity 
vulnerability.
    Focussing in on the cybersecurity aspects, can you explain 
how Next-Gen 911 technology is less vulnerable to cybersecurity 
attack than legacy 911 networks are?
    Ms. Boyd. Yes, sir. Not that IP networks aren't 
vulnerable--I'd like to clarify that--I think the difference is 
when you have an intelligent IP network you have the ability to 
introduce cybersecurity elements.
    That exists today in companies that provide 911 network 
services. They do a lot of good work to detect and divert. 
However, the public safety agencies themselves don't have those 
technologies.
    Recent work that Mr. Souder and I did with the FCC on the 
TFOPA report published we have a full section on cybersecurity 
and the recommendations on what we do in a Next Generation 
network to ensure that our PSAPs are secure.
    Mr. Johnson. OK. All right.
    Mr. Forgety, military installations--the people, their 
families on bases throughout the United States--rely on their 
smart phones in many cases just like ordinary citizens do.
    Do you know if the transition to Next-Gen 911 capabilities 
is underway on military bases and should it be?
    Mr. Forgety. As a matter of fact, Congressman, it is. In 
fact, our organization is working very closely with the 
Pentagon to make sure that as they do roll out NG911 they are 
not only looking at the technological aspects of it but also 
the operational pieces of it.
    For the longest time the telecommunicators and dispatchers 
in the military context--the military does operate PSAPs just 
like civilian jurisdictions do. They have not had standards for 
training and call answering and so forth. We are working with 
them to fix that.
    Mr. Johnson. Great. Madam Chair, I was a communication 
squadron and deputy commander in the Air Force and I can tell 
you that our military folks will be very concerned about this 
transition and that it's done right.
    Mrs. Blackburn. I agree with you on that, and I recognize 
Mr. Flores for 5 minutes.
    Mr. Flores. Thank you, Madam Chair, and I want to thank the 
witnesses for joining us today, and Dr. Magnussen, I am sorry I 
wasn't here to formally introduce you. We had an Energy 
Subcommittee hearing at exactly the same time.
    But that said, I do appreciate all the great work that you 
do at the Internet 2 Technology Center at Texas A&M and also 
applaud the work you've done with public safety LTE and the 
roll out of Next-Gen 911.
    Continuing with Dr. Magnussen, one of the things you 
discussed in your testimony is the need for a national layer to 
interconnect state NG911 networks. Can you explain the national 
background and what it brings to the transition?
    Mr. Magnussen. Yes, sir. And the question, basically, I 
think we have addressed already part of it was the fact that we 
really need a method for the state to be able to interconnect 
and transfer information from state to state.
    But another large, large benefit of having a national 
backbone or a national interconnection point is things like 
FirstNet--are they going to really connect at every PSAP or are 
they going to connect in every region or are they going to 
connect at three or four places across the state.
    Some of our large companies such as our large service 
providers typically have got five or six major call centers 
across the U.S. So if we have to basically require for them to 
connect in every single state which, quite frankly, in an IP 
world makes no sense, right, so if we can really go ahead and 
have a system that can aggregate some of those connections 
it'll be more effective for 911, actually be more effective--
cost effective for the vendors as well and it also could serve 
basically as the--we were talking a little bit earlier about 
the shared services--the private cloud type concept--because, 
again, if I am going to have my services out in the cloud if 
that cloud is protected and that cloud is basically designed 
under the same types of premises that that Ms. Boyd was talking 
about, then in essence I have a higher level of confidence in 
it. If it's across a commodity internet you're going to have a 
hard time selling that one to public safety.
    Mr. Flores. Right. Right.
    One of the things I noticed in the research prior to this 
hearing is that there are certain state laws and tariffs and 
regulations that are inhibiting or actually I'd say 
inadvertently inhibiting the migration to an IP-enabled 911.
    Do you have an example of that and more importantly than an 
example, what would you recommend that Congress consider doing 
to try to help the states alleviate those impediments?
    Mr. Magnussen. And, again, some of my colleagues can speak 
to that as well. But one example, again, in the case of 
Illinois was an issue where the state regulations required that 
911 services be purchased under a tariff.
    Well, in an era where telephone companies are deregulating, 
tariffs are going away. So it's things like that that, in 
essence, trying to check that block just don't work.
    Mr. Flores. Right. In your testimony, you talked about the 
missed routing that can occur when you're calling from close to 
the border on either side of the border. How will NG911 help to 
alleviate this problem where the calls are misrouted to the 
wrong country?
    Mr. Magnussen. The current system actually is based on a 
concept where for wireless calls I route on the location of the 
tower and that's initially how the--how the call routing is 
performed.
    So the scenario is this. I am a U.S. citizen and I am on a 
cell plan with the U.S. telephone company. I cross over the 
border to go ahead and have lunch. Let's say I am going into 
Canada. When I make that call, since--if I am right on the 
border my call could actually still be homed to a U.S. tower.
    That call actually could very easily and would in fact be 
routed to a 911 call center, let's say, for example, in upstate 
New York.
    Well, if I am sitting in Canada there is nothing the call 
center in upstate New York can really do to resolve that issue. 
So what they are doing right now is what they call a blind 
transfer where I just dial the 10-digit number of the call 
center on the other side of the border, and that's the thing 
that Mr. Ritter was saying that we are trying to eliminate in 
the state crossings.
    Well, that's prevalent across the Mexico and Canadian 
systems as well. Obviously, Canada has implemented 911 and 
Mexico recently had another number. Mexico recently had 
actually adopted 911 as their national number as well. So the 
dialing sequence is the same but, unfortunately, the networks 
are not interconnected.
    Mr. Flores. Right. Right.
    And lastly, in your testimony you talked about the need for 
better interstate connectivity. We know, obviously, why the 
connectivity is needed.
    Now that we have got cloud technology it makes it fairly 
simple. Well, I am oversimplifying simple. But that said, I 
have run out of time. So I would ask you to supplementally 
answer, if you can, what actions Congress should take to help 
facilitate that interstate connectivity.
    Thank you, and I yield back.
     Mrs. Blackburn. Gentleman yields back.
    Mr. Costello is batting cleanup and you are recognized.
    Mr. Costello. Thank you.
    A couple observations and then Mr. Magnussen, I have a 
question for you. I previously served as a county commissioner 
and in a very populated high-growth county in southeastern 
Pennsylvania where it seemed every year we got a little bit 
less from the state 911 fund because more counties are getting 
in the game of providing their own 911 call centers rather than 
going to a regional approach, and that's because the state 
essentially enables counties to do what they'd like with it.
    I always felt that you should have some sort of population 
threshold in order to have your own 911 center or some sort of 
formula because to a point that was made earlier there is just 
so much duplication that it becomes very frustrating because in 
high need counties that do need to operate their own call 
centers there is less revenue in order to draw from.
    The other observation that I had is Pennsylvania is not one 
of the states that does not use their 911 money for what it 
should be used for. I think I saw there's five or six states.
    And I am just having a little bit of difficulty. I will 
just put this into the record. In a county you have a county 
controller. At least in Pennsylvania it's referred to that. I 
am sure in other states it's referred by another title. It's an 
elected position.
    And you have to sign off and verify that the funds are 
being utilized for a lawful purpose. If it's at the state level 
I presume it would be a comptroller or auditor general or 
something to that effect.
    So I am having a little bit of difficulty how 911 funds are 
used for something other than 911 purposes. I think that we 
should all scrutinize that a little bit closer because 
somewhere along the way I think somebody is signing a check 
that they are not allowed to sign.
    In the Commonwealth of Pennsylvania, the PSAP inventory 
report from 2016 identified challenges to regionality. In some 
counties there are frequent interstate mutual aid 
considerations across borders in New York, New Jersey, where I 
am in south Jersey, which is part of New Jersey, but if you're 
from New Jersey obviously I think there's a north Jersey and 
south Jersey--Delaware and also northern Maryland.
    The report also noted that many of the design and 
deployment phases for regional projects involve a sizeable time 
investment which burdens the available administrative staff 
from each PSAP.
    Mr. Magnussen, I noticed your testimony also focused on 
collaborative interstate connectivity layers in order to 
alleviate 911 technology operation and policy issues such as 
the Midwest's interstate play book.
    One, could this be a model used for other areas of the 
country, specifically in the crowded northeast corridor where 
my district is, and two, can you please further explain how 
this interstate layer--where interstate layers ties into 
national level service providers?
    Mr. Magnussen. OK. The collaborative effort that the states 
have done in the play book makes a lot of sense for what they 
are doing today because in fact there is no national 
interconnectivity system to really be able to manage that.
    So what they are really doing is doing a peering 
relationship with bordering states. Two problems with that. 
Voice over IP is not based on bordering states.
    Voice over IP, I could very well be talking to a company 
that has a call center in California even though I am sitting 
in Texas. So the bordering state concept really starts to fall 
apart there.
    But more importantly, we run into a network and we call it 
the N+1 problem. So everybody that gets those routes needs to 
propagate the routes across everybody else.
    With four states you can do that. With five states it 
becomes more difficult. With 50 states it becomes impossible 
because you're having to constantly update all of your 
information independently and that model is just not scalable 
and that is just across the United States. Keep in mind this 
architecture is really designed to go globally.
    So while it would be next to impossible in the U.S., you 
are not going to do it across the entire globe.
    But there is also--and as far as the global efforts--we 
have the honor over the last 3 years of being involved with the 
CAUSE experiment. CAUSE stands for U.S. Canada Resilience 
Experiment and it involves DHS, SNT and the Canadian DRDC.
    So it involves homeland security of both countries and what 
we do there is actually an experiment where we build networks 
and then we look at cross border issues.
    CAUSE 5 is scheduled for November of this year and it will 
have a significant NG911 component to it because, again, we 
need to better understand how U.S. and Canada are going to be 
able to work together in an NG911 environment.
    Mr. Costello. Thank you. Yield back.
    Mrs. Blackburn. The gentleman yields back.
    That concludes our hearing as we have no further members 
who want to ask questions of our witnesses. And Mr. Doyle and I 
were just sitting here having a conversation based on the 
comments that you have made for us today.
    You have been excellent. We look forward to working with 
you as we continue to move forward and look at how we achieve 
those economies of scale, how we utilize the ability to build 
on work that has been done so that we deploy a little bit 
faster. And I want to thank you all for being with us today.
    I would remind members you have 10 days to submit 
additional questions for the panel and I have no doubt there 
will be some. And I would ask that each of you please respond 
in writing within 10 days of receipt of those questions.
    And there being no further business to come before the 
committee today, we stand adjourned.
    [Whereupon, at 12:12 p.m., the committee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    
                          [all]
                          
                          
                          
</pre></body></html>
